<html>
<title> - VOTING IN AMERICA: A NATIONAL PERSPECTIVE ON THE RIGHT TO VOTE, METHODS OF ELECTION, JURISDICTIONAL BOUNDARIES, AND REDISTRICTING</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]




 
VOTING IN AMERICA: A NATIONAL PERSPECTIVE ON THE RIGHT TO VOTE, METHODS 
       OF ELECTION, JURISDICTIONAL BOUNDARIES, AND REDISTRICTING

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON ELECTIONS

                                 of the

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 24, 2021

                               __________

      Printed for the use of the Committee on House Administration

                              BOOK 1 OF 2
                              
                              
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                             
                              


                       Available on the Internet:
         http://www.govinfo.gov/committee/house-administration
         
         
                           ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
 45-581           WASHINGTON : 2021 
         
         
         
                   COMMITTEE ON HOUSE ADMINISTRATION

                  ZOE LOFGREN, California, Chairperson
JAMIE RASKIN, Maryland               RODNEY DAVIS, Illinois, Ranking 
G. K. BUTTERFIELD, North Carolina        Member
PETE AGUILAR, California             BARRY LOUDERMILK, Georgia
MARY GAY SCANLON, Pennsylvania       BRYAN STEIL, Wisconsin
TERESA LEGER FERNANDEZ, New Mexico




VOTING IN AMERICA: A NATIONAL PERSPECTIVE ON THE RIGHT TO VOTE, METHODS 
       OF ELECTION, JURISDICTIONAL BOUNDARIES, AND REDISTRICTING

                              ----------                              


                        Thursday, June 24, 2021

                  House of Representatives,
                         Subcommittee on Elections,
                         Committee on House Administration,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 1310, Longworth House Office Building, Hon. G. K. 
Butterfield [Chair of the Subcommittee] presiding.
    Present: Representatives Butterfield, Aguilar, Leger 
Fernandez, Scanlon, Davis, and Steil.
    Also Present: Representative Loudermilk.
    Staff Present: Jamie Fleet, Democratic Staff Director; 
Brandon Jacobs, Legislative Clerk; Dan Taylor, General Counsel; 
Sean Wright, Senior Elections Counsel; Sarah Nasta, Elections 
Counsel; David Tucker, Senior Counsel and Parliamentarian; 
Natalie Young, Press Secretary; Peter Whippy, Communications 
Director; Tim Monahan, Republican Staff Director; Caleb Hays, 
Republican General Counsel and Deputy Staff Director; Nick 
Crocker, Republican Deputy Staff Director; and Mike Cunnington, 
Republican Policy Advisor.
    Chairman Butterfield. The Subcommittee on Elections of the 
Committee on House Administration will now come to order. Let 
me say good morning to all of you and thank you so very much 
for joining us today.
    I am told that the Committee on the Judiciary met until 5 
o'clock this morning, and so Ms. Scanlon may be a little late 
arriving today, and when she does arrive, I am going to 
accelerate her statement and let her go as early as we possibly 
can.
    As I said, the Judiciary Committee worked until 5 o'clock 
this morning, and I am told that they will resume their work at 
11 o'clock this morning, eastern time.
    And so as we begin, colleagues, this morning, I want to 
note, we are holding this hearing in a hybrid fashion. It is an 
in-person hearing, and we are doing it remotely. And we are 
also doing it in compliance with the regulations for remote 
committee proceedings, pursuant to House Resolution 8.
    Generally, we ask any Committee members and witnesses who 
are joining us remotely to keep their microphones muted when 
they are not speaking, and the purpose of this is to limit 
background noise.
    Members will need to unmute themselves when seeking 
recognition or when recognized for their five minutes.
    Witnesses will also need to unmute themselves when 
recognized for their five minutes or when answering a question.
    If you are joining us remotely, thank you for doing so this 
morning. But please keep in mind that your camera must be on at 
all times, even if you need to step away for a moment. Please 
do not leave the meeting or turn your camera off. There are 
good technical reasons for that. But those are the rules.
    Lastly, for those who are joining in person, we are holding 
this hearing in compliance with the guidance issued by the 
Office of the Attending Physician, and anyone joining us in the 
hearing room who is not vaccinated should continue to please, 
please, please wear your mask.
    At this time, I will ask unanimous consent that the Chair 
be authorized to declare a recess of this Subcommittee at any 
point, and that all members have five legislative days in which 
to revise and extend their remarks and have any written 
statements be made part of the record.
    I hear no objections. It is therefore ordered.
    Today's hearing, ladies and gentlemen, is the fifth--number 
five--it is the fifth in our Subcommittee series examining 
voting in America.
    Today we will discuss changes in election administration 
and voting laws that change methods of election, alter 
jurisdictional boundaries, and redraw district lines, as well 
as a national perspective on the state of the right to vote in 
our great country.
    As we sit here today, it cannot go unacknowledged that 
tomorrow is the eighth anniversary of the Supreme Court's 
decision in Shelby County v. Holder, a case that we are all 
familiar with, a decision that reshaped the landscape of voting 
rights and protecting the right to vote in this country.
    This decision opened the door to a wave of suppressive 
voting measures that are no longer subject to a review by the 
Department of Justice for its discriminatory impact.
    Since that decision, the Shelby decision, access to the 
ballot has been under constant attack, sometimes overtly 
through direct attacks on opportunities to vote, as we 
discussed at previous hearings, discriminatory voter ID laws, 
changes to polling locations that can disenfranchise minority 
voters and lead to long wait lines, and lack of access to 
language materials.
    Sometimes these attacks are less overt, like moving 
district lines or changing election procedures under the guise 
of election integrity.
    The evidence and data this Subcommittee has heard so far 
and we have collected through these hearings, it seems to me to 
be undeniable. The changes to election laws and procedures we 
have discussed can and are enacted and administered in a 
discriminatory manner.
    As I said when we began this series of hearings, one of our 
most sacred rights in this country is the absolute right to 
vote. However, as the evidence has shown, access to the ballot 
in this country is not, and it has not been, free, nor fair for 
all eligible voters. I am not just talking about voters on one 
side of the political persuasion, but all eligible voters.
    Eight years after the Supreme Court decided Shelby, our 
work continues. As our dear friend and my dear friend and 
former colleague, the late Congressman John Lewis, often said, 
the vote is precious. John would tell us in our caucus 
meetings, it is almost sacred. And so we can, and we must, do 
better.
    The testimony provided today will be informative, as we 
seek to understand what needs to be done to safeguard our 
elections and guarantee equal access to the ballot box.
    We must, colleagues, we must comply with the Supreme 
Court's directive that we create a new formula--Section 4, we 
call it--a new formula, narrowly tailored to meet current 
conditions.
    We have seen in other hearings that a law which is neutral 
on its face, or at least appears to be neutral on its face, can 
actually violate Section 5, which is still the law of the land.
    I remind you, the Supreme Court did not strike down Section 
5. It found Section 4, the formula, to be unconstitutional.
    If the law disproportionately and materially burdens 
minority voters when measured against preexisting State law, 
then it violates Section 5.
    I want to repeat that, and then I am going to close, 
because so many of my colleagues, not on this Committee, but 
throughout the House and the Senate, many of our colleagues 
really don't fully understand and appreciate this.
    If a law, a new law, disproportionately and materially 
burdens minority voters when it is measured against preexisting 
State law, then it violates Section 5.
    And so with that said, Mr. Ranking Member, I look forward 
to hearing from today's witnesses. I will continue to work with 
my colleagues to protect this sacred right.
    It is now my pleasure to recognize the Ranking Member, and 
I can now honestly say, my friend, Mr. Steil, for any opening 
statements that he might have.
    [The statement of Chairman Butterfield follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
 
    
    Mr. Steil. Thank you, Mr. Chairman.
    Earlier this week, H.R. 1, S. 1, failed to advance in the 
Senate.
    H.R. 1 and S. 1 would have created the first-ever public 
financing of congressional campaigns. It would have gutted 
voter ID laws. It would have legalized ballot harvesting 
nationwide. It would have weaponized the FEC. It would have 
limited free speech protections for Americans. And it would 
have nationalized our elections.
    Luckily, the bill failed to achieve 60 votes in the United 
States Senate.
    When Democratic Senator Joe Manchin announced his 
opposition to H.R. 1 and S. 1, he wrote, quote, ``Partisan 
voting legislation will destroy the already weakening binds of 
our democracy,'' end quote.
    He was chastised when he said that by the Left. One of our 
colleagues, one of our Democratic colleagues from the New York 
delegation said Manchin's op-ed might as well have been titled, 
quote, ``Why I Will Vote to Preserve Jim Crow,'' end quote.
    Unfortunately, this isn't the first time we have heard this 
kind of ridiculous rhetoric, disinformation, and scare tactics 
about many of the election integrity laws States have in place 
or are passing to make it easy to vote but hard to cheat.
    We heard the same rhetoric in my home State of Wisconsin 
when the State implemented voter ID. But in practice, this is 
not the case. The 2020 election, almost 76 percent of eligible 
voters cast a ballot, the fourth highest rate in the country.
    Another Member of the New York delegation recently 
described States' efforts to bolster voter confidence through 
smart reforms as, quote, ``voter suppression epidemic,'' end 
quote, on CNN's ``State of the Union.''
    And President Joe Biden called Georgia's law, quote, ``un-
American, sick, and Jim Crow on steroids,'' end quote. 
Eventually, that earned him four Pinocchios in The Washington 
Post.
    When you take the time to read the legislation and analyze 
these State laws, you will find that many States' Democrats are 
crying wolf about actually having less restrictive voting laws 
in many Democratically controlled States, such as New York or 
Delaware.
    However, it just doesn't fit their narrative. It is all 
part of an effort to convince the American people that the laws 
being passed by States are so racist or suppressive that the 
only option is for the great, benevolent Federal Government to 
take over. This is a dangerous and false narrative.
    I am thankful that our country has come a long way since 
the passage of the Voting Rights Act of 1965. It is important 
to recognize.
    It is also important to remember the history behind the 
need for that legislation, which was intended to protect and 
promote minority voter registration and turnout, a moral and 
just goal.
    Our colleague, Congressman Burgess Owens, testified about 
this at the Senate hearing on H.R. 1 and S. 1, sharing his 
experience with Jim Crow laws growing up in the Deep South and 
noting how dangerous it is to spread the false narrative that 
Jim Crow laws are being implemented today.
    Congressman Owens stated in his testimony, quote, ``It is 
disgusting and offensive to compare the actual voter 
suppression and violence of the era that we grew up in with a 
State law that only asks people to show their ID,'' end quote.
    While Senate Republicans may have stopped H.R. 1 and S. 1, 
this Committee hearing today is proof that Democratic efforts 
to nationalize our elections are far from over.
    As House and Senate Democrats turn their attention to pass 
H.R. 4, we need to examine the power of the Voting Section of 
the Civil Rights Division of the Justice Department, which 
Democrats wish to expand.
    For example, if H.R. 4, as written last Congress, were to 
become law, the State of Wisconsin would need to get 
preclearance from unelected bureaucrats in Washington to 
implement commonsense voter ID laws. H.R. 4 would essentially 
remove States' constitutional authority to run their own 
elections.
    With the failure of H.R. 1, make no mistake, H.R. 4 is 
Democrats' next attempt at a Federal takeover of our election 
system.
    Although unrelated to today's hearing, I just want to 
quickly mention something that happened in our hearing that was 
very concerning--at our last hearing--that was concerning about 
the use of Zuckerbucks in election administration.
    Mark Zuckerberg poured more than $350 million into this 
supposedly nonpartisan nonprofit to help election 
administrators across the country conduct elections during the 
pandemic.
    However, the Foundation for Government Accountability found 
that much of these dollars went into heavily Democratic areas. 
For example, the research found that 92 percent of the funding 
in Pennsylvania went to counties that broke in favor of 
President Biden.
    In another example in Wisconsin, they found that $9.6 
million that went into Wisconsin, $7.5 million of that went 
into just five cities, the cities of Milwaukee, Madison, Green 
Bay, Kenosha, and Racine, heavily Democratic areas.
    This amount of private money going to influence the 
administration of our elections is concerning, and I believe it 
is something that this Committee should take up and examine.
    With that, Mr. Chairman, I look forward to today's 
discussion, and I yield back.
    [The statement of Mr. Steil follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Chairman Butterfield. The gentleman yields back.
    And I thank you, Mr. Ranking Member, for your comments, and 
thank you for all that you do for this Committee and for your 
constituents.
    In your opening statement, you made reference to my friend 
and your friend, Senator Manchin, and thank you very much for 
those kind words about Senator Manchin. He is, indeed, a 
principled and thoughtful United States Senator.
    I recall the Senator making a statement about H.R. 1, and 
my recollection is that he does not disagree with H.R. 1, he 
disagrees with certain portions of H.R. 1. But he published a 
statement of the things that he agreed with and would be 
willing to support.
    And also Senator Manchin supports updating the formula. We 
have some differences of opinion about how it should be done, 
but Senator Manchin is on record in support of reauthorizing 
Section 4.
    With that in mind, let me recognize the Ranking Member of 
the full Committee, Mr. Davis, Rodney Davis of Illinois.
    Mr. Davis. Thank you, Mr. Chair. It is great to see you. I 
appreciate another opportunity to talk about these very 
important issues.
    Considering the important nature of this hearing, I am 
actually pleased to hear from the National Republican 
Redistricting Trust and ask unanimous consent, Mr. Chair, that 
their testimony be entered into the record.
    Chairman Butterfield. Without objection.
    [The information follows:]
    Mr. Davis. We know this is a majority-driven institution, 
and the majority gets to pick a lot more witnesses than what we 
do. So this gives us a chance to get some other witness 
testimony into the record, because we all know the Democrats 
are holding this hearing to develop a new preclearance formula.
    The Supreme Court struck down as unconstitutional the old 
formula. That old formula looked at primarily minority voting 
registration and turnout, subjecting underperforming 
jurisdictions to preclearance, an extreme remedy that allowed a 
Federal court or the Federal Department of Justice to prevent a 
State law or a municipal ordinance from going into effect.
    And our Ranking Member, Mr. Steil, laid this out very 
effectively just a few minutes ago.
    Thankfully, that extreme remedy is no longer required. 
Minority voter turnout has hit record levels, and minority 
voter registration is also high.
    We still have some work to do, but nothing rises to the 
level of requiring preclearance, a direct affront on State 
sovereignty and equal dignity.
    When it comes to redistricting, States must maintain the 
authority to determine the best methods for their own citizens, 
which may rely on maps drawn by the legislature or a 
commission.
    However, I can tell you as somebody who lives in the State 
of Illinois, I am for independent commissions. I think the 
process has been corrupted by politicians from both sides.
    I am pleased that many Democrats appear to be coming around 
to voter ID, the highly popular policy that is important for 
supporting voter confidence in our election processes and their 
outcomes. Even Stacey Abrams and President Carter approved of 
voter ID.
    Finally, we must ensure that we remove any Federal policies 
that serve as improper impediments to Native American 
participation in Federal elections.
    Mr. Chair, thanks for the opportunity to offer opening 
comments. I yield back.
    Chairman Butterfield. And thank you, Mr. Davis, for your 
words.
    At this time, I am going to introduce today's first panel. 
But before I do that, as a reminder to our witnesses, each of 
you will be recognized for five minutes. For those who are 
appearing virtually, there is a timer on your screen. Look 
right up there and you will see the timer. Please be sure that 
you can see the timer and are mindful of the five-minute time 
limit.
    For those who are joining us in person, there is a lighting 
system and timer in front of you. Please be mindful of the 
lights and the five-minute limit.
    Your entire written statements will be made part of the 
record, and the record will remain open for at least five days 
for additional materials to be submitted.
    Welcome to each of our witnesses today.
    Joining us today on our first panel are Jerry Vattamala. 
Jerry is of the Asian American Legal Defense and Education 
Fund.
    Also Patty Ferguson-Bohnee--and if I am mispronouncing any 
of these names, please forgive me, I am from eastern North 
Carolina--Patty Ferguson-Bohnee of the Indian Legal Clinic at 
the Sandra Day O'Connor College of Law.
    We also have Mr. Eric H. Holder, Jr., of the National 
Democratic Redistricting Committee. And as we all know, he is 
the former Attorney General.
    And Thor Hearne of the True North Law Group.
    Next, we will now recognize Jerry Vattamala. Well, let me 
introduce Jerry Vattamala in more detail.
    He is the Director of the Democracy Program at the Asian 
American Legal Defense and Education Fund. He has worked in 
election protection on behalf of Asian American voters, 
litigated and testified on redistricting issues. He has 
litigated cases concerning violations of Section 203 and 208 of 
the Voting Rights Act. He is also an adjunct professor of law 
at New York Law School.
    Next is Patty Ferguson-Bohnee. She is the Director of the 
Indian Legal Clinic at the Sandra Day O'Connor College of Law 
at Arizona State University, ASU. She is also a clinical 
professor of law, the faculty director of the Indian Legal 
Program.
    She has substantial experience in Indian law--and that is 
something this Committee, on both sides of the aisle, we are 
all concerned about--election law, and policy matters, and she 
also concentrates on voting rights.
    She also testified before this Subcommittee twice last 
Congress--I remember it well--on issues impacting access to the 
ballot for Native American voters.
    She is a member of the Pointe-au-Chien Tribe, and serves as 
the Native vote election protection coordinator for the State 
of Arizona.
    Mr. Eric H. Holder, Jr., is the former Attorney General of 
the United States. He serves as the Chairman of the National 
Democratic Redistricting Committee.
    General Holder served in the Obama administration as 
Attorney General of the United States from 2009 to 2015, the 
third-longest serving Attorney General in U.S. history and the 
first African American to hold that office. Also, with 
relatives in Raleigh, North Carolina, I might say that.
    Next, is Thor Hearne II. Thor is a founding partner of True 
North Law Group and has worked in Federal and State litigation 
and appeals in matters involving property rights, 
constitutional law, and election issues.
    Mr. Hearne has argued cases before the U.S. Supreme Court, 
the circuit courts of appeals, and various State supreme 
courts. He served as President Bush's national election counsel 
in the 2004 campaign and was an adviser to the Carter-Baker 
Commission on Federal election reform.
    That concludes my introductions. I will now recognize the 
witnesses each for five minutes.
    Mr. Vattamala, you are recognized.

  STATEMENTS OF JERRY VATTAMALA, DIRECTOR, DEMOCRACY PROGRAM, 
    ASIAN AMERICAN LEGAL DEFENSE AND EDUCATION FUND; PATTY 
  FERGUSON-BOHNEE, DIRECTOR, INDIAN LEGAL CLINIC, SANDRA DAY 
    O'CONNOR COLLEGE OF LAW; ERIC H. HOLDER, JR., CHAIRMAN, 
 NATIONAL DEMOCRATIC REDISTRICTING COMMITTEE; AND THOR HEARNE, 
             FOUNDING PARTNER, TRUE NORTH LAW GROUP

                  STATEMENT OF JERRY VATTAMALA

    Mr. Vattamala. Thank you, Mr. Chair, thank you, Ranking 
Member, and thank you to the Committee for allowing AALDEF, the 
Asian American Legal Defense and Education Fund, to testify and 
put forward forth the perspective of Asian American voters, a 
perspective that is often not included.
    We conduct our Asian American exit poll and poll monitoring 
programs every major election. We have done this since 1988. In 
2020, for the Presidential election, we were in 13 States and 
Washington, D.C., and had interactions with over 5,000 Asian 
American voters.
    In our work we do focus on the language access provisions 
of the Voting Rights Act, Sections 203 and 208, These 
violations are ongoing. In 2015 we sued the State of Texas for 
violating Section 208. And just a few weeks ago, on June 3, we 
filed a Section 203 complaint against Hamtramck, Michigan, for 
not providing Bengali language assistance.
    We also do a lot of work on redistricting. As you see in 
the materials that we have submitted, in the last redistricting 
cycle, in Favors v. Cuomo, a redistricting case out of New York 
State, we submitted several documents, a memo, as well as some 
attachments.
    And one of those attachments is what we call Asian American 
communities of interest, the neighborhood maps of 15 Asian 
American communities of interest in New York City. The way we 
constructed that map, those 15 different maps, we met with 
community groups and we asked them to identify their own 
neighborhood boundaries.
    That is what we submitted, and on the last three pages of 
that document, we superimposed those 15 different Asian 
American communities of interest over the [inaudible] State 
Senate lines, and congressional lines, and what we found was 
that every single Asian American community of interest was 
divided into numerous different legislative [inaudible].
    And what this does is, it prevents Asian American voters 
from electing a candidate of their choice. And it is not a 
coincidence why there is a population of over 1 million Asian 
Americans, which would be the tenth-largest city in the United 
States, Asian Americans had very little electoral success in 
New York City without fair redistricting.
    Indeed, at the time of the last redistricting cycle, there 
was never an Asian American elected to Congress from New York 
State, nor did we have an Asian American elected to the State 
Senate.
    Several Asian American communities of interest were divided 
into as many as six different legislative districts. Again, 
this denies this community, our community, the opportunity to 
elect a candidate of its choice.
    We had to litigate in Federal court, to argue that these 
communities of interest should be kept whole and together. The 
court actually agreed with us at the congressional level, drew 
a congressional district that kept Asian American communities 
of interest together. It is centered in Flushing, Queens, where 
there is a large concentration of Asian American residents.
    And for the very first time, just several months later, New 
York elected the first-ever Asian American to Congress from New 
York State.
    We do this redistricting work all around the country. We 
are in Boston, we are in Pennsylvania, New Jersey, as well as 
Texas.
    People don't realize, Section 5, we did have coverage in 
New York. It is not only in the South. We had three counties 
that were covered under Section 5, which helped us in Section 
203 compliance.
    It also helped us in the redistricting process. We worked 
with the Black community and the Latino community in forming 
what we call a unity map that protected all the communities of 
color that were protected under the Voting Rights Act.
    It was very powerful to have that knowledge that Section 5 
was there. And the people that were drawing the map, the 
legislature, they started from that position of making sure 
that they are complying with Section 5 and not retrogressing 
districts that were performing for communities of color, which 
is very important, and we don't have that.
    It is the first redistricting cycle in several decades, 50 
years, where we are not going to have this preclearance 
protection. And in a place like Texas, we know that is 
essential because, of the few Asian Americans that are elected 
in Texas, we know there has been consistent efforts to 
deconstruct and divide their community.
    Hubert Vo--it is in my materials--we submitted an amicus 
brief in the last redistricting cycle. He is the first-ever 
Vietnamese American elected to the Texas State House. His 
victory was challenged. There were racist comments and 
accusations made about the voters in his district.
    He is in a triracial coalition district where Blacks, 
Latinos, and Asian Americans all vote as a bloc to elect Mr. 
Vo. In the last round, his district was dismantled, and only 
because of Section 5 was his district protected and the new 
redistricting plan kept his district intact.
    Chairman Butterfield. Please begin to wind down.
    Mr. Vattamala. We do need help from the Department of 
Justice.
    Chairman Butterfield. Please begin to close out if you 
will, sir.
    Mr. Vattamala. They are very upset to see very little 
action, really no action from the Department of Justice. We 
need their help in protecting Asian American voters, and we 
need Section 5 back. Those key protections that we had are very 
effective in protecting Asian American voters. And we look 
forward to working with this Committee and making sure that 
happens.
    Thank you.
    [The statement of Mr. Vattamala follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Chairman Butterfield. Thank you, Mr. Vattamala.
    At this time, the chair recognizes Professor Ferguson-
Bohnee. You are now recognized for five minutes.

               STATEMENT OF PATTY FERGUSON-BOHNEE

    Ms. Ferguson-Bohnee. Good morning, Chairman Butterfield, 
Ranking Member Steil, Ranking Member Davis, and members of the 
Committee. Thank you for inviting me to testify today.
    The Indian Legal Clinic coordinates the Arizona Native Vote 
Election Protection Project, a nonpartisan effort to protect 
Native American voting rights.
    On behalf of Tribal clients, I have litigated Section 2 
cases involving redistricting, restrictive voting laws, early 
voting access, and language compliance under Section 203.
    After Congress passed the Indian Citizenship Act of 1924, 
States with large Native American populations created legal 
barriers to prevent Natives from registering to vote and 
casting a ballot.
    Four decades later, the Voting Rights Act finally opened 
the door for Native Americans to exercise the right to vote. 
This led to efforts by local and State lawmakers to reduce the 
effectiveness of the Native vote and to prevent Native 
Americans from being elected to office.
    States and their political subdivisions have used the 
redistricting process to disenfranchise Native American 
communities, especially in areas with significant Native 
populations that can determine the outcome of elections.
    Not surprisingly, non-Indians have manipulated the 
redistricting process in order to maintain power and control.
    Before Shelby County, the Department of Justice issued nine 
Section 5 objections to redistricting plans involving Native 
voters in Alaska, Arizona, and South Dakota, and five of these 
were in Arizona.
    The Department of Justice also brought numerous 
redistricting cases to enforce voting rights of Native 
Americans between the 1970s and 2000.
    In the past two decades, however, most redistricting 
litigation filed on behalf of Indian voters has been brought by 
tribes or private parties.
    Since 1996, 22 Federal cases challenging at-large election 
systems, redistricting lines, or malapportionment have been 
filed on behalf of Native voters, involving State legislative 
districts, school boards, counties, sanitation districts, and 
city councils.
    Packing has been one of the methods used to reduce voting 
strength. Multiple counties in South Dakota have packed Native 
Americans in the fewest number of districts, thereby 
eliminating their ability to elect multiple candidates of 
choice.
    In San Juan County, Utah, the county placed Navajo voters 
in a single overpopulated district so that they would not have 
the ability to elect more than one member to a three-person 
county commission. Plaintiffs spent $3.4 million over 7 years 
to litigate this case.
    And in the last 25 years, jurisdictions in Montana, North 
Dakota, South Dakota, and Wyoming have used at-large voting 
schemes to disenfranchise Native Americans.
    Also, geographic and jurisdictional boundaries frustrate 
the ability of many Tribal communities to politically mobilize 
in support of one candidate for many Federal, State, and local 
offices because a reservation may be split among multiple 
districts, counties, or even States.
    Over 200 reservations are located in multiple counties or 
States. Some jurisdictions fail to respect Tribal boundaries 
when creating districts. Redistricting bodies of Wisconsin, 
Montana, Washington, and California have diluted the power of 
Tribal communities by dividing Tribal voters among multiple 
districts.
    In Washington, for example, the Lummi, Colville, and Yakima 
reservations were each split into multiple districts.
    Arizona courts have invalidated redistricting plans when 
the State legislature split Tribal reservations into multiple 
districts.
    In addition to redistricting boundaries, precinct lines can 
cause confusion and result in discarded ballots. In Arizona, 
sometimes counties fail to place a voter in the correct 
precinct or counties create precinct lines that divide a Tribal 
community.
    Not only does this cause confusion, but Native voters are 
more likely to have their ballot discarded for voting at the 
wrong polling location.
    But for discriminatory practices, Native Americans would 
have greater representation in local, State, and national 
decisionmaking efforts that affect their lives.
    Despite barriers, Natives continue to fight to protect and 
exercise the right to vote. However, past redistricting and 
jurisdictional issues have stunted the full potential of the 
Native vote.
    Redistricting provides an opportunity to reverse course and 
ensure Native American representation. As Justice Breyer said 
in Shelby County, it is an old disease, it has gotten a lot 
better, but it is still there.
    I would like to remind the Committee that Congress has a 
duty to fulfill its unique trust obligation to Native 
Americans, including in the matters of voting. This must 
include a meaningful opportunity for Native people to elect 
candidates of choice, be heard, and not be saddled by 
unnecessary barriers that exploit centuries' worth of 
inequality.
    We need robust voting rights legislation to mitigate the 
burden placed on Tribes to litigate Section 2 cases, and the 
Department of Justice can carry out this trust responsibility 
by bringing enforcement actions to protect Native American 
voters.
    Thank you for the opportunity to testify. I am happy to 
answer any questions the Committee may have.
    [The statement of Ms. Ferguson-Bohnee follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    Chairman Butterfield. And thank you for your testimony.
    At this time the chair recognizes Attorney General Holder 
for five minutes.

                STATEMENT OF ERIC H. HOLDER, JR.

    Mr. Holder. Thank you, Mr. Chairman, Ranking Member Steil, 
Mr. Davis, and members of the Committee. I want to thank you 
for the opportunity to appear before you today.
    As you know, we are having this important conversation at a 
very important moment. Eight years ago tomorrow in the Shelby 
County decision, a very divided Supreme Court gutted Section 5 
of the Voting Rights Act of 1965 and undermined a cornerstone 
of American democracy protection.
    Now, before 2013, Section 5, relying on Section 4, had 
helped prevent discriminatory voting laws from taking effect by 
imposing preclearance protections that required a Federal 
review of changes to voting procedures in covered regions. 
Basically areas with a history of discrimination had to get 
approval from the Department of Justice or from a Federal court 
for significant changes in voting laws or procedures.
    Now, that section of the Voting Rights Act, it helped to 
stop some of the worst attempts to discriminate against 
minority voters for decades. But in a 5-to-4 opinion the 
conservative members of the Court wrote that the Nation had 
changed dramatically since the Voting Rights Act went into 
effect and that because of gains made, particularly by Black 
Americans, these protections were no longer necessary.
    They were wrong.
    Efforts to keep groups of Americans, particularly African 
Americans, away from the ballot box are as old as America 
itself, and the same forces that have historically sought to 
create an unequal status quo are still working to impose it 
today.
    In the days since that ruling 8 years ago, unnecessary and 
discriminatory voting restrictions went up across the country. 
We saw State legislatures pass a rash of strict voter ID laws 
that disproportionately impacted people of color. We saw voting 
roll purges and poll closures targeting minority and poor 
communities. And we saw newly emboldened State legislatures 
draw discriminatory maps that unfairly placed Black people and 
other people of color, young and poor people, into 
gerrymandered voting districts where their impact could be 
diluted and their voice ultimately lost.
    Now, as Attorney General I fought back against these 
attempts to subvert our democracy and to disenfranchise voters 
of color using the remaining provisions of the Voting Rights 
Act in cases from Texas, North Carolina, and Ohio, to 
Wisconsin, Montana, and South Dakota.
    As chair of the National Democratic Redistricting 
Committee, I have continued that work, taking on unfair maps, 
fighting for fair elections, and demanding justice for every 
American voter across the country.
    But just as my work has continued, so too often have 
efforts to roll back the clock on voting rights. Over the past 
few years, politicians have used a range of strategies to 
diminish the voice of the people, from gerrymandering to voter 
suppression to outright intimidation.
    And today we are facing what I would call a sustained, 
coordinated, multipronged assault that seeks to diminish 
protections for voters, restrict access to the franchise, and 
redefine the way that power is gained and exercised in the 
United States of America.
    We have seen this assault in voting restrictions, voter ID 
laws, and voter roll purges that have unfairly--and in some 
cases illegally--stripped Americans of their rights.
    In just the first 6 months of 2021, State legislatures 
across the country have introduced more than 389 bills in 48 
States that would make it harder to cast a ballot. Two dozen 
have already been passed into law.
    Since the Shelby County decision, millions of Americans 
have unnecessarily been purged from voter rolls. Nearly 1,700 
polling locations have been closed since the decision. We have 
seen map manipulation and gerrymandering that has allowed 
politicians to pick their voters so that a party with minority 
views and minority support can illegitimately govern with 
majority power.
    In States that are politically competitive, like 
Pennsylvania, North Carolina, and Wisconsin, one party has 
sought to draw lines with surgical precision, packing some 
voters together and splitting other towns and communities 
apart, in order to create congressional delegations and State 
legislatures that are heavily skewed on a partisan basis and 
immune to citizen accountability.
    We have seen it in the Supreme Court decision in Rucho that 
abandoned the Court's fundamental, and I think unique, 
responsibility to achieve justice in the face of partisan 
gerrymandering.
    Now, these actions have not made our elections safer or 
more secure. They have not improved the quality or the 
accessibility of our politics. Instead, they have stripped 
Americans of fundamental rights and undermined the promise of 
American democracy. And they have all, every one of them, 
disproportionately impacted people of color.
    Just a few weeks ago, more than 100 of our Nation's top 
democracy scholars signed a letter warning about the 
deterioration of American voting rights and representation due 
to radical laws, regulations, and restrictions imposed over the 
last few months.
    As a result of these changes, they said voting procedures 
in some States, quote, ``no longer meet the minimum conditions 
for free and fair elections,'' unquote.
    In the United States, our beloved country, this must not 
stand. We need to repair the damage being done to our 
democracy. We need to create lasting, durable safeguards to 
protect our most essential freedom. We need to expand and 
codify into law voting rights and processes so that every 
eligible American casts a ballot and be confident that it will 
be fairly county.
    We need to end gerrymandering so that all people, including 
people of color, can be represented by public servants of their 
choice.
    I am here to do all that I can to help in that regard. I am 
not asking for political favoritism. I am asking for no special 
treatment for any group or community.
    I am asking for nothing more radical than that which is at 
the heart of the American experiment, the idea at the core of 
American democracy, free and fair elections where the people--
all the people--are heard, and all of the people are respected.
    Thank you very much.
    [The statement of Mr. Holder follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Chairman Butterfield. Thank you, Mr. Holder, for your 
statement.
    At this time, the chair will recognize Mr. Hearne for five 
minutes.
    Mr. Hearne.

                    STATEMENT OF THOR HEARNE

    Mr. Hearne. Thank you, Chairman Butterfield and Ranking 
Member Steil and the members of this Committee. I appreciate 
this very important opportunity to appear before you in this 
hearing on how we conduct elections in our Nation.
    How we conduct our elections is the bedrock of our 
constitutional Republic. Without every voter having the ability 
to cast a vote and all citizens having confidence in the 
conduct and outcome of our elections, we, the people, would 
cease to govern our Nation.
    I firmly believe that while political campaigns and 
elections are quintessentially a partisan endeavor, the manner 
in which elections are conducted and the laws governing the 
conduct of the elections should rise above partisan interests.
    Our identity as Americans should transcend our partisan 
affiliation as a Republican or a Democrat. As President Obama 
said in his speech to the Democratic National Convention in 
2004, there is not a liberal America and a conservative 
America, there is the United States of America. There is not a 
Black America and a White America and a Latino America and an 
Asian America, there is the United States of America. I totally 
agree.
    As Americans, we share a common interest in assuring our 
elections are fair, honest, and accessible to every voter. We 
also share a common interest in assuring that the outcome 
reflects the will of the voters and was not engineered by 
disenfranchising any segment of our population, some voters by 
partisan manipulation or by manipulation of the election 
process.
    Elections must be conducted according to clearly written 
laws that are faithfully followed and administered by election 
officials with transparency and without any racial or partisan 
bias. Every eligible citizen, irrespective of their race, 
color, or heritage, must have equal opportunity to cast a 
ballot, and every American must be confident that every 
lawfully cast ballot was accurately counted.
    The Voting Rights Act of 1965 was an extraordinary 
legislative accomplishment because it was adopted in a broad 
bipartisan manner. The bill was sponsored by Senators Dirksen 
and Mansfield, both the Republican and Democrat leaders of the 
Senate, and it was passed on a bipartisan basis. That is one of 
the most important points for the moral authority of the Civil 
Rights Act.
    And more recently, the Carter-Baker Commission provided a 
highwater mark in bipartisan election reform and made a number 
of recommendations to increase our Nation's confidence in the 
outcome of our elections and also to increase voter 
participation in our elections.
    These recommendations included a reliable, accessible, 
voter identification requirement, elimination of ballot 
harvesting, maintenance of current and accurate voter rolls, 
among other reforms that increase voter confidence and increase 
voter participation.
    These recommendations were broadly supported by bipartisan 
members of the Carter-Baker Commission, and they are the basis 
for recommendations this Committee and other State and local 
election jurisdictions should consider. These recommendations 
will increase voter confidence in our elections and increase 
voter participation.
    I return to my central point: Laws governing the conduct of 
our elections should be broadly bipartisan, not an effort to 
achieve a partisan advantage for one or the other side.
    At the end of the day, we are all Americans, and we all 
have our first allegiance to our Nation, and it is not to a 
party or to a particular partisan ideology. And we need to work 
together to do that and have the moral authority of an election 
conduct that is bipartisan and rises above any particular 
effort to game the system for one or another faction.
    I commend again the work of the Carter-Baker Commission, 
and I will welcome any questions when we get to that point.
    Thank you.
    [The statement of Mr. Hearne follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    Chairman Butterfield. And thank you, Mr. Hearne, for your 
testimony.
    That concludes the statements from the witnesses. I think 
it may be time now for us to move to member questions. I am 
going to take Ms. Scanlon first.
    Mary Gay, I understand that you may have been in markup 
very late last night, maybe till 5 o'clock this morning.
    Ms. Scanlon. Yes, it was. It was a good time.
    Chairman Butterfield. Well, we are going to make you first. 
You know, I have participated in an all-night markup before, 
and it is very brutal. My other committee, the Committee on 
Energy and Commerce, probably holds the record for the longest 
markup, some 25 or 26 hours. So I am empathizing with your 
position.
    Ms. Scanlon. Thank you.
    Chairman Butterfield. So at this time, you are recognized 
for 5 minutes.
    Ms. Scanlon. Thank you, Chairman Butterfield, and thank you 
to our witnesses.
    In Pennsylvania we have lived with the reality of political 
gerrymandering. I have lived in the same house for 26 years and 
I have been in three different congressional districts.
    In 2018, after a special election, I briefly served as the 
Representative for Pennsylvania's Seventh, District, which has 
been dubbed ``Goofy kicking Donald'' based on its cartoonish 
shape.
    It snaked across six counties and halfway across the length 
and breadth of the State to collect voters to form a district 
with a Republican voter majority in a region that had a 
Democratic voter registration majority. At one point, that 
district was only the width of a restaurant.
    For the better part of the 2010 decade, Republicans 
controlled 13 of Pennsylvania's 18 congressional seats through 
gerrymandering, despite the fact that Democrats held a 
statewide voter registration edge of several hundred thousand.
    In 2018, as the result of a lawsuit brought by the League 
of Women Voters, Pennsylvania's congressional districts were 
declared so gerrymandered as to be an unconstitutional denial 
of the right to vote.
    Pennsylvania State law still provides for redistricting to 
occur by legislation, and there is every reason to believe the 
Republican-controlled legislature will abuse this power again 
when it redistricts the Commonwealth later this year to reflect 
the loss of a congressional seat.
    An effort to amend the State constitution to substitute a 
redistricting commission for the current partisan process was 
gutted by those same legislators just a year or so ago.
    Without congressional intervention, we will continue to see 
politicians crack and pack districts to their benefit.
    I want to take a moment to address some of the false claims 
being pushed about the voter legislation, H.R. 1, and the John 
Lewis Voting Rights Act.
    These bills are absolutely necessary, as we see a concerted 
effort by Republican legislatures across the country to make it 
harder to vote and, oh, easier to overthrow elections.
    First of all, this is not a Federal takeover of the 
election process. Article I, section 4 of the Constitution 
empowers Congress to regulate Federal elections.
    Second, H.R. 1 and the Voting Rights Act do not outlaw 
voter ID. All States require some form of voter ID in 
registration or the voting process.
    What these laws do is outlaw voter ID laws that preference 
some voters over others. A classic example is the Texas statute 
which recognized voters with a gun license but not with a 
student ID.
    Third, although--I can't read my own writing because it 
disintegrated last night. Oh, although Republican legislatures 
over the past several decades have led the way to implement no-
excuse mail-in voting, including a law that was passed before 
COVID in Pennsylvania, that changed in 2020, when former 
President Trump began, without evidence, to malign the use of 
mail-in ballots.
    I want to make clear: Mail-in ballots are secure. They have 
multiple levels of security. They have been used by our 
military since the Civil War. And there is no evidence of 
widespread fraud. To the contrary, mail-in voting was a 
blessing during the pandemic.
    For our witnesses, thank you so much for being here today.
    Mr. Holder, we last met coordinating election protection 
efforts in the Philadelphia region in 2008.
    You discussed Shelby in which Justice Roberts invited 
Congress to update the preclearance sections to respond to 
modern conditions. I happen to agree with the late Justice Ruth 
Bader Ginsburg, who dissented in that case, saying that 
preclearance was, in fact, working and throwing it away was 
like throwing away an umbrella in a storm because you are not 
getting wet.
    Since Shelby, voter suppression efforts have metastasized 
across the country in new forms. As one of my colleagues from 
Pennsylvania, Malcolm Kenyatta, recently said, we now have 
artisanal voter suppression.
    Can you talk a little bit about what we should be doing 
with respect to reauthorizing the preclearance provisions?
    Mr. Holder. I think we certainly have to respond to the 
findings of the Shelby County decision, holding hearings like 
this, creating a record that shows the impact of the Shelby 
decision--1,700 polling place closures, unnecessary voting 
purges--to establish a record for congressional action.
    The Court in the Shelby decision actually invited 
congressional action, and I think the efforts that are being 
led by Chairman Butterfield here are consistent with what the 
Shelby County decision mandated.
    I think that the Congress, through the necessary work and 
making appropriate findings, can craft legislation that would 
be responsive to the concerns expressed by five members of the 
Court and come up with a new system that, in fact, would pass 
constitutional muster.
    Ms. Scanlon. Thank you.
    Ms. Scanlon. Mr.----
    Chairman Butterfield. The gentlelady's time has expired. 
You can make this your last question, if you can.
    Ms. Scanlon. Actually, I would just seek unanimous consent 
to enter into the record the testimony of Kristen Clarke, now 
Assistant Attorney General of the Civil Rights Division, when 
she testified before the House Judiciary Committee, 
Subcommittee on the Constitution, Civil Rights, and Civil 
Liberties in 2019, outlining the dozens, if not hundreds, of 
voter suppression acts that had occurred since the Shelby 
decision.
    And with that, I yield back. Thank you.
    Chairman Butterfield. The statement of the Assistant 
Attorney General, Ms. Clarke, will be received, unless there is 
objection.
    Hearing no objection, it will be received.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Chairman Butterfield. At this time, the chair is pleased to 
recognize the Ranking Member of the Subcommittee, Mr. Steil.
    Mr. Steil. Thank you, Mr. Chairman.
    And thank you to our panelists for being here this morning.
    Mr. Hearne, in your testimony you stated that you served as 
an adviser on the Commission on Federal Election Reform, 
commonly known as the Carter-Baker Commission.
    The commission made a total of 87 election reform 
recommendations to increase voter confidence in the election 
process following the 2000 Presidential election, and most 
notable was the commission's endorsement of a photo 
identification requirement to vote.
    How many members served on the Carter-Baker Commission, Mr. 
Hearne?
    Mr. Hearne?
    The pros/cons of an electronic hybrid. I will answer the 
question. It is 21 commissioners----
    Mr. Hearne. [Inaudible.]
    Mr. Steil. Are you there, Mr. Hearne?
    Mr. Hearne. Yes, I am. Let me--I am here, yeah. Sorry, 
Member Steil.
    Mr. Steil. That is fine. There were 21 commissioners on the 
Carter-Baker Commission. It was bipartisan, Republicans and 
Democrats, correct?
    Mr. Hearne. That is correct. It included luminaries from 
this body like Lee Hamilton, Bob Michel, obviously President 
Carter and Secretary Baker.
    Mr. Steil. And how many members voted in support of the 
voter ID recommendation?
    Mr. Hearne. They all voted in support of it except for two 
members--Tom Daschle and Spencer Overton--who filed a 
supplemental statement in which they said they didn't support 
the use of the Federal Real ID as an identification.
    Mr. Steil. So in summary, Democrats and Republicans on that 
commission in 2000, looking to increase voter confidence in the 
election, voted in favor of photo ID.
    Let me shift gears here slightly. I think one thing we can 
all agree on is that voting rights are important and that every 
single eligible person who wants to vote should have the 
opportunity to cast a ballot, and that every vote should be 
counted according to State law. And thankfully our country has 
come a long way since the 1960s.
    And so I would like to dive into the preclearance, which is 
really an extreme legal remedy.
    Mr. Holder, as you are aware, in 2013 the United States 
Supreme Court declared the preclearance coverage formula 
unconstitutional in Shelby County because the criteria used 
were outdated and, therefore, violated principles of equal 
State sovereignty and Federalism.
    And so the preclearance formula in the Voting Rights Act 
was based on 1965 election information, which had low turnout 
rates, in particular among minority voters.
    If a new preclearance formula was introduced, what would be 
your specific criteria to identify a covered jurisdiction?
    Mr. Holder. Well, I think that what we would have to do is 
do what the Congress did back in 1965, which is to conduct 
hearings, as you are doing now, come up with ways in which you 
look at States that have----
    Mr. Steil. But you are uniquely knowledgeable, you sit on a 
board, you study this. What would be the specific criteria that 
you would recommend Congress look at to determine who would be 
covered?
    Mr. Holder. Well, I would look at voter participation. I 
would look at the way in which lines were drawn when it comes 
to gerrymandering. And gerrymandering has an impact on this 
whole question of keeping people away from the polls.
    If we look at the poll closures, 1,700 since Shelby County, 
750 in Texas, 320 in Arizona----
    Mr. Steil. So I am going to reclaim my time. I am going to 
reclaim my time just because we are so tight on time here.
    So I appreciate that.
    Let me share my concern, is that I don't know how 
jurisdictions are going to know exactly whether or not they are 
in or out of this preclearance. And my concern is that every 
jurisdiction is going to find themselves under the role of the 
Federal Government, continuing to push towards a Federal 
Government takeover of our elections. That is my concern.
    And Chief Justice Roberts noted that the Department of 
Justice is, quote, ``famously opaque, and usually the States 
and municipalities have to go through or had to go through 
several layers of back and forth. It is sort of a bargaining 
process,'' end quote.
    So, to me, my concern is that the Department of Justice is 
not going to be impartial. And in 2013, the Department of 
Justice Inspector General reviewed the DOJ hiring process and 
determined that eight of the nine new hires to the Voting 
Rights Section had one or more liberal affiliations, and two of 
them had an affiliation with the Democratic Party itself. Five 
of the hires had affiliation with five specific civil rights 
groups. Two of the groups are providing testimony today.
    The IG also noted that none--none--of the ten candidates 
had conservative or Republican affiliations that were hired. 
And only 1 of 235 candidates with unknown affiliations was 
hired.
    With the observations of the DOJ hiring practice focused on 
specific partisan ideological affiliations, I am concerned that 
States won't get a fair shake.
    And Mr. Holder, I know that in your testimony you noted 
that you are not asking for favoritism towards any political 
party. But the group that you represent, the National 
Democratic Redistricting Committee, in their IRS filing stated 
that the purpose of the organization is to build a 
comprehensive plan to favorably position Democrats for the 
redistricting process through 2022.
    Is that correct?
    Mr. Holder. Yeah. To favorably place Democrats in a 
position to fight for fairness----
    Mr. Steil. So----
    Mr. Holder [continuing]. To fight for fairness, and make 
sure that the process is indeed fair. We have to ensure that 
Democrats have the capacity to [inaudible]----
    Mr. Steil. Reclaiming my time, and noting that we are in 
the home stretch.
    Mr. Holder [continuing].--With their Republican----
    Mr. Steil. Understood. Just I think it is important to note 
the purpose of the organization that you represent--and Mr. 
Chairman, I will wrap up by seeking unanimous consent to submit 
to the record Mr. Holder's organization's IRS filing with that 
purpose so stated.
    Chairman Butterfield. Without objection, so ordered.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    Mr. Holder. Let me just say that that is a 
mischaracterization of the intent of that filing. And beyond 
that, the notion that the Justice Department----
    Mr. Steil. Mr. Holder, you are saying that you unfairly 
characterized yourself in your own IRS filing? That you 
misfiled an IRS----
    Mr. Holder. You are unfairly characterizing that which we 
wrote. And beyond that----
    Mr. Steil. I am reading--I am not mischaracterizing 
anything. It says, ``describe the purpose of the 
organization.'' I quoted it in full.
    Chairman Butterfield. The Committee will come to order. As 
I used to say when I was a trial judge years ago, the witness 
may complete his answer. All right.
    Mr. Holder. One can look at words and mischaracterize them. 
With all due respect, Congressman, you are looking at those 
words and mischaracterizing them. I am trying to give you their 
true intention.
    And beyond that, more importantly though, this notion that 
the Justice Department has somehow acted in a partisan way, 
Republican as well as Democratic attorneys general really 
enforced the Voting Rights Act during the course of its 
history.
    Every President who signed the reauthorization of the 
Voting Rights Act was, in fact, a Republican.
    Chairman Butterfield. The gentleman's time has expired.
    Mr. Holder. The reauthorization of the act was supported 
almost unanimously by Republicans and Democrats in the House as 
well as in the Senate.
    Chairman Butterfield. Thank you, Mr. Holder.
    At this time, the chair recognizes Mr. Aguilar for five 
minutes.
    Mr. Aguilar. Thank you, Mr. Chairman. I appreciate it. And 
I will do something unique here. I will ask a question and then 
let the witnesses answer.
    Attorney General Holder, for the first time since the 1970s 
our Nation is entering a congressional redistricting cycle 
without preclearance, as Ms. Scanlon mentioned.
    What does this mean for communities of color who have been 
disproportionately affected by the drawing of jurisdictional 
boundaries and already lack representation at the local, State, 
and Federal level?
    Mr. Holder. Well, I am very concerned about what this will 
mean. We have seen what State legislatures have done since the 
Shelby County decision with regard to closing polling places, 
with regard to--you look at the way in which Republicans 
gerrymandered in the 2011 process.
    One of the places, we are talking about Wisconsin. If you 
look at in 2018, Democrats got about 54 percent of the votes 
for the Wisconsin State Legislature, got about 36 percent of 
the seats.
    I am concerned that without the protections of the Voting 
Rights Act, that which we have seen in the past decade can 
continue into the following decade and have a negative impact 
on the ability of the American people to elect representatives 
who truly represent their policy desires.
    Mr. Aguilar. After the Shelby ruling, Mr. Attorney General, 
what is the litigation strategy to fight voter discrimination 
and disenfranchisement within communities of color?
    Mr. Holder. Well, we bring cases where we can identify 
racial gerrymanders, and we can bring those into Federal court. 
We have also, after the Rucho decision, brought partisan 
gerrymandering cases in the State courts using the State 
constitutions, done so successfully in North Carolina, as has 
been mentioned, in Pennsylvania as well.
    And so the Supreme Court rulings have made it difficult for 
us to bring litigation but not necessarily impossible.
    Mr. Aguilar. And the Chair talks about this often. Can you 
talk a little bit about the cost of the litigation and the time 
that it takes?
    Mr. Holder. Yeah. The preclearance--the beauty of 
preclearance was that you stopped negative action before it 
began. Without the ability to preclear in those States that 
were covered, you have to deal with things that have already 
occurred, negative impacts that have already occurred, and try 
to unwind them.
    And it means that you have probably gone through at least 
one election cycle where a finding of impropriety has occurred, 
at least one election cycle where something--where a process 
was done inappropriately and probably had a negative impact on 
the voters in the State or the jurisdiction in which the 
litigation has been brought.
    Mr. Aguilar. Thank you, sir.
    Ms. Ferguson-Bohnee, in your written testimony you 
mentioned States and local jurisdictions carving up 
reservations or packing Indian voters in redistricting plans in 
order to minimize the impact of the Native vote and that this 
method was called cracking and packing.
    Can you talk a little bit about how cracking and packing 
has affected Native Americans, particularly at the local level?
    Ms. Ferguson-Bohnee. Yes. Thank you, Representative 
Aguilar.
    We see that there are quite a bit of cracking and packing 
in local jurisdictions. I think I set forth in my testimony 
some examples of that. And that has really minimized the Native 
American voice and the ability to participate.
    There are also jurisdictions that have added seats on 
county commissions or judgeships in order to dilute the Native 
American vote and participation in elections.
    And when preclearance was in effect in Arizona, for 
example, there were objections to two rounds--two submissions 
from counties that sought to expand the judgeship positions, 
and in that they found that that would reduce Native American 
participation.
    So that has been done really to minimize the Native 
American voice.
    And then we see--I just want to give the example of the San 
Juan Southern Paiute case, because you asked about cost. That 
litigation took 7 years and cost the plaintiffs, which was the 
Tribe, $3.4 million.
    But these jurisdictions are also spending money to defend 
their plan. So if they were protected by preclearance--Utah 
wasn't covered by preclearance before--but if they were 
protected by preclearance, then a lot of this money would be 
saved for our local jurisdictions and for the Tribes. And most 
of the Tribes do not have the resources to be expending on 
voting rights litigation.
    Mr. Aguilar. You said 3 and a half years and--I am sorry, 7 
years and $3.5 million?
    Ms. Ferguson-Bohnee. Yes, yes. And that was really to 
prevent Native Americans from gaining another seat on the 
County Commission. They were packed, 90 percent of Native 
Americans were packed into one district. And the other two 
districts maintained a lower number of people, so they were 
malapportioned.
    And so the Navajo Nation had to file litigation to 
apportion those districts correctly and to give them an 
opportunity to elect two candidates of choice, which they did.
    Mr. Aguilar. Thank you so much. I appreciate that.
    Mr. Chair, I yield back.
    Chairman Butterfield. The gentleman yields back.
    The Chair now recognizes the Ranking Member of the full 
committee, Mr. Davis.
    Mr. Davis. Thank you, Mr. Chair.
    As somebody who comes from a State that is completely 
controlled by one party, the Democrats, who have 
supermajorities in the House and the Senate. We have a 
Democratic Governor who pledged not to sign a legislative drawn 
map. He broke that pledge when he recently signed a State 
legislative map drawn with incomplete census data.
    I listened to Attorney General Holder's opening comments 
and I think, wow, we are going to have a group come in and 
address the partisan gerrymandering in Illinois.
    Mr. Holder, I enjoyed your opening comments. We got a 
chance to meet at the State of the Union one year. I am glad to 
see you here again.
    Can you tell me how recently it has been since you have 
been to Illinois to discuss partisan gerrymandering?
    Mr. Holder. I have focused on partisan gerrymandering 
around the country and have stood against Democrats who have 
engaged in that process, whether it was in the case, the 
redistricting case, the Rucho case, standing against what 
happened in Maryland. I have stood against Democrats in New 
Jersey and in New York who have tried to use power that they 
have there to engage in partisan gerrymandering.
    And I am against partisan and racial gerrymandering done by 
any party in any place.
    Mr. Davis. Well, I would welcome you to come to my home 
State of Illinois. I didn't get an answer when the last time 
you were there to talk about this issue.
    I do have a quick question regarding this. Does the 
National Democratic Redistricting Committee support the 
Mexican-American Legal Defense Fund's lawsuit against the State 
of Illinois for the redistricting plan that was adopted by the 
Illinois General Assembly just a few weeks ago and signed into 
law by Governor J.B. Pritzker?
    Mr. Holder. I will be honest with you. I have not had a 
chance to review that lawsuit, but I would be more than glad to 
do that and submit some supplementary comments with regard to 
the views of the organization and my personal views on the 
lawsuit.
    Mr. Davis. I really appreciate that.
    Also, Illinois' current map was drawn in 2011. There is a 
lot of discussion here about partisan gerrymandering in 2011. 
There is a district represented by my good friend and colleague 
Mr. Chuy Garcia that is commonly known as the earmuff district.
    Would that be an example of Democrats packing minorities 
into one district?
    Mr. Holder. Again, I am not familiar with the particular 
map.
    But gerrymandering is not something that is only done by 
Republicans. It has been done by Democrats. We have had 
gerrymandering almost since the inception of our Nation, which 
doesn't mean we have to accept it.
    Princeton did a study that said that gerrymandering done by 
Republicans in 2011 was the worst of the past 50 years, but 
there are Democratic as well as Republican excesses that I 
stand against. Let me make that very, very clear.
    Mr. Davis. Well, I appreciate that. And I noticed during 
the decade there were remaps drawn only in Republican States.
    I would again welcome your organization to come to my home 
State of Illinois any year, because they just--the Democrats 
just gerrymandered the State legislative map, and we expect 
them to do exactly the same thing with the congressional map.
    So I welcome you and your team to the fight, and I 
certainly hope that we can communicate in the future on this.
    General Holder, both the Carter-Baker Commission and the 
Bauer-Ginsberg Commission established by President Obama 
identified inaccurate voter rolls as a national problem. And, 
unfortunately, I believe it is still true today.
    You served, as we know, as AG from 2009 to 2015. And during 
your tenure at DOJ, how many NVRA Section 8 enforcement actions 
or investigations did the Department bring against States for 
failure to conduct list maintenance?
    Mr. Holder. I don't have those numbers in front of me, but 
we certainly took our obligations seriously in that regard.
    Mr. Davis. According to the DOJ website, there were no 
enforcement actions for failure to conduct list maintenance, 
only one action against Florida for so-called purging voters.
    How did you guys know at DOJ during your tenure if a State 
was in compliance with provisions of the NVRA or not?
    Mr. Holder. Well, we have a variety of techniques. We 
certainly listen to public comments that we get from a variety 
of sources. We have investigative components within the Justice 
Department that are able to monitor the situations that are 
happening around the country. We have a Civil Rights Division, 
a Voting Rights Section that has investigative power.
    So the Justice Department has a number of ways in which it 
can monitor situations around the Nation.
    Mr. Davis. I appreciate that, sir. And I know many of your 
donors to the National Democratic Redistricting Committee may 
not agree with you wanting to come to States like Illinois, but 
I certainly appreciate your willingness to talk about these 
things.
    Do you support donor disclosure?
    Mr. Holder. I do. I do think that there needs to be 
transparency with regard to who is making donations to 
political organizations, and that would be good for our 
democracy.
    Mr. Davis. Sir, will you disclose the donors to the 
National Democratic Redistricting Committee for the record 
today?
    Mr. Holder. Well, what we do is follow the law as it 
exists. I am not going to unilaterally disarm. When Republicans 
will do the same thing, I will do that and we will certainly 
follow the law.
    But I stand for the disclosure obligations that are 
contained in the bills that are being considered before 
Congress.
    Mr. Davis. Well, I would appreciate any disclosure. Happy 
to talk with you in the future, sir. Thank you for your 
responses.
    And thank you to all the witnesses for being here today.
    Chairman Butterfield. And we thank you, Mr. Ranking Member.
    At this time, the chair recognizes Ms. Teresa Fernandez for 
five minutes.
    Ms. Leger Fernandez. Thank you so much.
    Chairman Butterfield. Leger Fernandez.
    Ms. Leger Fernandez. It is a long name. Thank you so much, 
Mr. Chair.
    We are here because American democracy really does depend 
on our power to ensure fair and free elections for all our 
communities, not just some of our communities, because every 
citizen, regardless of ZIP Code, has a right to vote without 
interference and obstruction.
    Before I came to Congress, I actually represented Native 
American Tribes in redistricting cases and overturned 
Republican redistricting maps that sought to divide Native 
American communities.
    We advocated, I advocated the committee include language in 
H.R. 1 to ensure that independent redistricting commissions 
respect Tribal communities when drawing boundaries.
    Ms. Ferguson-Bohnee, based on your experience with regards 
to Native American voting rights, do you believe that Tribes 
and Native American communities should be protected as 
communities of interest in the Voting Rights Act?
    Ms. Ferguson-Bohnee. Thank you very much for the question.
    I do definitely agree that Native Americans, within their 
reservation, they should be determined a community of interest.
    We have seen in some circumstances where redistricting 
bodies or those who are making the redistricting decisions have 
split Tribal boundaries and Tribal reservations into multiple 
districts, diluting the effectiveness of that vote.
    We also have Tribes who share communities of interest with 
other Tribal people. They are communities of interest and have 
advocated for that, but, nonetheless, they have also been split 
and they have been packed or cracked into different districts.
    And in that circumstance, there are examples of cracking. I 
have that in my testimony. I can attach some more specifics for 
the record if you would like.
    But I think that is a huge issue, is respecting Tribal 
boundaries and respecting Tribal communities of interest, and 
some redistricting bodies do not do that.
    Ms. Leger Fernandez. Thank you very much.
    And, for example, in New Mexico we did include the Pueblos 
and the Apaches in single districts, legislative districts, 
precisely because of the fact that they do have affinity on 
many issues and that is what they chose.
    With regards to the independent redistricting commissions, 
where they exist, have you seen whether there has been 
sufficient Native American representation on those commissions, 
therefore reflecting the communities that will be affected by 
the redistricting lines drawn by the commissions?
    Ms. Ferguson-Bohnee. Well, this round I think there are a 
few Native Americans who are serving on redistricting 
commissions. I think there is Native interest in Montana, 
another State I can't remember off the top of my head. But 
Arizona for the first time has a Native American on the 
commission.
    And I think that is really important, because I think, as I 
explained in my materials, Native Americans have very rural 
areas across the country. They are some of the most rural 
areas, and they have unique needs that may not be understood by 
many of the people who live in urban areas.
    So to understand Tribes and to understand the unique needs 
of Tribal people I think is very important. And we have seen 
that commissions, at least this round, have included some 
Native Americans on their redistricting commissions.
    Ms. Leger Fernandez. Thank you.
    With regards to the San Juan litigation, how many elections 
took place during those 7 years that the case was being 
litigated?
    Ms. Ferguson-Bohnee. Yeah. I am sorry. I don't know off the 
top of my head. But I assume--yeah, I don't know off the top of 
my head how many elections took place during that time period.
    Ms. Leger Fernandez. But essentially, those elections took 
place with maps that were later found to be unlawful, and, 
therefore, Native Americans did not have the kind of 
representation for 7 years while laws were being passed.
    Mr. Vattamala, thank you so much for joining us today.
    Could you describe more fully how preclearance as opposed 
to Section 2 litigation impacts Asian Americans' access to the 
ballot?
    Mr. Vattamala. Yeah. So, as I mentioned, even in places 
like New York, we were able to successfully use Section 5 in a 
variety of ways, in combination with Section 203.
    We used Section 5 to object, submit our objections to the 
DOJ when the New York City Board of Elections refused to 
translate Chinese ballots with the candidates' names. They 
refused to translate the candidate ballot, the candidates' 
names on the ballot.
    We were able to use Section 5 to require them to do that 
translation, fully translate the ballot, and have 55,000 
limited-English-proficient Chinese Americans able to vote.
    I also gave the example of Hubert Vo in Texas in that Texas 
House district. We would not have been able--we would not have 
the resources to litigate under Section 2 for that seat, but 
under Section 5 the burden was on the State, and they were not 
able to carry that burden. And it was a great example of how 
Section 5 worked well for communities with limited resources.
    Chairman Butterfield. The gentlewoman's time has expired.
    At this time, the Chair will recognize himself for five 
minutes. And I will go back to Mr. Vattamala.
    U.S. census data reflects that Asian Americans are the 
fastest growing racial group in the United States.
    Historically, we have seen that areas with significant 
growth in racial groups are also where there is greatest risk 
of discriminatory intent or discriminatory result in 
redistricting practices.
    How have these rapidly growing Asian American communities, 
many of which are in the South, been impacted by redistricting 
post-Shelby?
    Mr. Vattamala. So there is a backlash. We have seen it in 
some public comments by elected officials, which are included 
in the testimony.
    Asian American communities of interest, when we map them 
out and see where the boundaries are and do this exercise of 
superimposing those neighborhood boundaries over legislative 
lines, you see that in almost every instance--it is not a 
coincidence--in almost every instance, Asian-American 
communities of interest are divided into numerous different 
districts, subverting this growth and thwarting the effects of 
this growth and the numbers, to deny them the ability to elect 
a candidate of their choice.
    That is why the percentage of Asian American elected 
officials is not keeping track with that population growth. And 
we only see Asian American electoral representation when we 
have fair redistricting. Only then are they able to elect a 
candidate of choice and they usually do.
    Chairman Butterfield. Thank you. Thank you for that.
    Next, I will address this to General Holder.
    Attorney General Holder, you were at DOJ at the time that 
Shelby County was handed down, and so you operated in two 
environments. You were involved in the pre-Shelby environment 
as well as the post-Shelby environment. And I know that must 
have been awkward for you as Attorney General.
    Section 5, as I recall, in the Court's decision was found 
to be constitutional. That is what America needs to know. The 
Supreme Court of the United States found Section 5 to be 
constitutional.
    What was found to be unconstitutional was Section 4, which 
is the formula that gives life to Section 5.
    And so I know it must have been awkward for you at DOJ, 
operating under the Court's decision.
    And also, I might recognize that the Court, Chief Justice 
Roberts also acknowledged that voter discrimination continues 
to exist in the United States. And so that also is embedded in 
the Court's opinion.
    And I recall I was a young voting rights attorney in North 
Carolina many years ago, back in the 1980s, and I practiced 
Section 5 law.
    President Reagan was President. William Bradford Reynolds, 
as I recall, was the chief of the Civil Rights Section of the 
Department of Justice. And during the Reagan years, there were 
multiple Section 5 objections to election systems and to 
changes in election laws.
    And let me defend some of the jurisdictions in the South 
that I am familiar with. Many of these voting changes were not 
done specifically with the intent to discriminate against 
African American voters, but they had a discriminatory effect.
    And so that is what the Department of Justice under 
President Reagan had to do. And the standard back then, it 
continues to be the standard now. And I will read it again, 
because I want America to know this: ``A State voting law has a 
discriminatory, regressive effect if the law disproportionately 
and materially burdens minority voters when it is measured 
against preexisting State law.''
    And so my question to you, General Holder, is, how did the 
Shelby decision affect executing your duties at the Department 
of Justice when it was handed down?
    Mr. Holder. Well, the biggest change was by, in essence, 
taking away the preclearance ability. But you are right, 
because of the Section 4 problems, it stopped us from 
preventing negative things from occurring as opposed to waiting 
for those negative things to occur and then trying to make 
things better.
    It is almost as if you see somebody getting ready to set 
fire to a house. You can stop them and prevent the house from 
being damaged as opposed to waiting for the fire to engulf the 
house and then trying to repair the house once the fire is put 
out.
    And so there are still parts of the Voting Rights Act that 
remain that are effective. Section 2, for instance. But that 
doesn't give the Justice Department all of the tools that it 
needs.
    And I really want to push back on the notion that somehow 
or other this was something only the Democratic Attorneys 
General were focused or made a priority.
    As you talk about the Reagan Justice Department, the Bush 
Justice Department, I might not agree with all that they did, 
but they made a priority the enforcement of the Voting Rights 
Act.
    Maybe I would say they didn't go far enough, but certainly 
they did things consistent with the intent of the act to 
protect the sanctity of our electoral system using the tools 
that they had.
    Chairman Butterfield. Yes. Thank you. Thank you for that 
clarification.
    And what my colleagues need to know--not those on this 
committee, because they already know it, but the colleagues 
throughout the House--is that Section 5 is an administrative 
procedure. It is streamlined. It can be completed in 60 days. 
There is no cost associated with it.
    The covered jurisdiction need only to submit in writing the 
proposed change to the Department of Justice for an evaluation 
as to whether or not it is retrogressive. If DOJ says it is not 
retrogressive, it goes into effect. If DOJ says that it is 
retrogressive, it does not go into effect and the jurisdiction 
then goes back and rewrites the law. And oftentimes, rewriting 
of the law is done with consultation with DOJ.
    And I will conclude by mentioning Rocky Mount, North 
Carolina, in my district. When I was a voting rights attorney, 
the city wanted to annex 12 or 13 acres of land within the 
municipal boundaries.
    The city didn't realize the effect that it would have on 
minority voting strength in the community. It was about 
economic development. They wanted to get a shopping center into 
the city and they wanted to annex.
    And once DOJ expressed an objection to the annexation, that 
is when the city asked DOJ, well, what can we do to make it 
right? And DOJ said, well, if you create single-member 
districts, that will kind of level the playing field. And the 
city said, you have got it, we are going to create single-
member districts.
    They did it. And now it is 30 years later and things are 
well in that jurisdiction.
    That is the power of Section 5. It prevents. It prevents a 
problem.
    Thank you for your tolerance.
    At this time, I will recognize Mr. Loudermilk.
    Welcome back, Barry. You are recognized for five minutes.
    Mr. Loudermilk. Well, thank you, Mr. Chairman. I appreciate 
you allowing me to participate in this even though I am not an 
official member of this Subcommittee.
    And I apologize. I had to step out. As things go here, we 
had some conflicting meetings, especially now as we are opening 
up and people are coming to meet with us in person. So I 
appreciate your indulgence.
    Look, voter ID laws have been a huge topic since the 2020 
election. In Georgia, they have been a big topic for many 
years. I was in the State legislature when we first adopted a 
clear and concise voter ID law, and it has been debated but did 
find bipartisan support there.
    And in spite of what some of the witnesses here and some 
others may believe, that voter ID laws are very popular and 
really an important safeguard for election integrity and the 
confidence of voters in the election process.
    Most everyone has probably heard of the latest polls that 
have been coming out. Just this week, Monmouth University 
released polling data showing 80 percent of Americans support 
voter ID, and that did not surprise me in the least.
    Friends I have on both sides of the aisle think it is very 
important that you be able to prove who you are for something--
or who you say you are--for something as important as choosing 
who the leaders of your school board, your city, your county, 
your State, your Nation are. It has great implications and it 
is an intricate part of being a secure election system.
    Even someone I served with in the State legislature, it 
kind of did surprise me of her statement, but Stacey Abrams has 
just recently said no one has ever objected to having to prove 
who you are to vote.
    Now, if my memory serves me correctly, that isn't the 
stance she took when we served in the legislature together 
regarding this matter, but I think we are starting to see a 
shift as people are seeing that this is very popular among 
people, because they want their vote to be protected.
    Attorney General Holder, in your testimony you reference 
voter ID laws as one method that has been used to, I think, if 
I have got it right, strip Americans of their rights.
    In the light of polling information I just referenced, 
including among Democrats and comments like those from Ms. 
Abrams, I am just wondering, have you changed your viewpoint on 
voter ID and do you or do you not support it and why?
    Mr. Holder. What I oppose is the overly prescriptive way in 
which States, generally Republican States, have indicated that 
which is acceptable to prove that you are who you claim to be 
when you want to vote.
    If you expand the number of things that somebody can use to 
prove they are who they claim to be, I could support voter ID. 
But we have that problem in Texas, as was mentioned before, 
where carrying a gun and you have a photo ID, that is 
acceptable, but a State-issued photo ID for a student is not. I 
have got problems with that.
    So if you come up with ways in which you make it widely 
available and you expand the number of ways in which people can 
prove that they are who they claim to be, yeah, I could see 
supporting voter ID measures.
    Mr. Loudermilk. Well, that is good and refreshing to hear.
    In Georgia, if you don't receive a driver's license, you 
can get a free State-issued ID. And so anyone can receive the 
ID and it can be used as identification for voting.
    Mr. Vattamala, do you support voter ID laws? And, if so or 
not, why?
    Mr. Vattamala. Yeah. So we support reasonable voter ID 
laws. It is really the same answer as Mr. Holder. It depends on 
what that list of acceptable documentation is.
    Mr. Loudermilk. Ms. Ferguson-Bohnee, do you support voter 
ID laws? And what about Tribal ID as a form of acceptable voter 
ID?
    Ms. Ferguson-Bohnee. Thank you for that question.
    We have advocated for the use of Tribal IDs when IDs are 
required. In some instances, they have not been accepted or 
States have not accepted that as a form of ID, and that should 
be accepted as a form of ID.
    I would like to note that the Navajo Nation, the largest 
Tribe in the United States, does not issue a photo ID to their 
Tribal members. And so that was concerning when Arizona passed 
their voter ID law, because it didn't take into account what 
types of ID that Native Americans may have.
    In addition, because in rural areas and on reservations a 
lot of areas, especially Arizona, other areas, people don't 
have traditional street addresses. And when they go to vote on 
election day their addresses don't match, because the counties 
change the addresses on the voter registration materials. And 
so that creates problems and sometimes results in votes not 
being counted.
    Mr. Loudermilk. Thank you.
    Continuing on the topic of voter ID, Mr. Hearne, you state 
in your testimony that Democratic Virginia Attorney General 
Mark Herring appointed you to defend Virginia's election reform 
legislation against a constitutional challenge. That challenge 
included a voter ID requirement, correct?
    Mr. Hearne. It did, Congressman. And that was upheld by the 
Fourth Circuit.
    I would cite Virginia's voter ID law as a model of one that 
is constitutional, consistent with the Supreme Court's decision 
in Crawford. And I would also note, in terms of your statement, 
civil rights leader Andrew Young, former mayor of Atlanta, 
supports photo ID.
    And what we found in the Carter-Baker Commission was that 
there was testimony that actually giving particularly minority 
members a photo ID for free increased their participation, 
because it gave them greater confidence that when they went 
into a polling place, they handed the ID over, they knew they 
would be given a ballot that would be cast and counted. So it 
increased participation.
    Chairman Butterfield. The gentleman's time has expired. All 
time has expired for this panel.
    We want to say thank you to all of our panelists. Thank you 
very much for your testimony. And thank you for your 
cooperation as we have tried to work through the technology. I 
think we have done reasonably well this morning. But thank you 
to the witnesses.
    We in just a moment will be moving to the second panel. 
But, as they say in television, we will stop for a commercial 
break, and we will return in 2 or 3 minutes.
    The committee stands in recess until further call.
    [Recess.]
    Chairman Butterfield. The committee will come back to 
order.
    We are now ready to proceed with the second panel.
    And thank you, panelists, for your patience this morning.
    Joining us today on our second panel are Thomas Saenz of 
the Mexican-American Legal Defense and Educational Fund. Also, 
Janai Nelson of the NAACP Legal Defense and Educational Fund. 
Michael Waldman of the Brennan Center for Justice. Wade 
Henderson of the Leadership Conference for Civil and Human 
Rights. And Sara Frankenstein of the law firm of Gunderson, 
Palmer, Nelson & Ashmore in the State of South Dakota.
    Also, Thomas Saenz is President and General Counsel of the 
Mexican-American Legal Defense and Educational Fund--we refer 
to it as MALDEF--where he leads the civil rights organization's 
offices in pursuing litigation, policy advocacy, and community 
education to promote the civil rights of Latinos living in the 
United States. He rejoined MALDEF in August of 2009 after 4 
years as counsel to the Mayor in Los Angeles, California.
    Janai Nelson. Janai is the Associate Director-Counsel at 
the NAACP Legal Defense and Educational Fund. We call it LDF. 
Ms. Nelson is a member of LDF's litigation and policy teams and 
has served as interim Director of LDF's Thurgood Marshall 
Institute and in various other leadership capacities at LDF. 
She was one of the lead counsels in Veasey v. Abbott, a 
successful Federal challenge to Texas voter ID law.
    Mr. Waldman, who sits in front of me at this moment, is the 
President of the Brennan Center for Justice, which he has led 
since 2005. Mr. Waldman is a constitutional lawyer. He is a 
writer and an expert on the Presidency and American democracy. 
Mr. Waldman was director of speechwriting for President Bill 
Clinton from 1995 to 1999, serving as assistant to the 
President.
    Wade Henderson, who I will acknowledge publicly is a 
friend, is the interim President and CEO of the Leadership 
Conference on Civil and Human Rights and the Leadership 
Conference Education Fund, an organization he previously led 
for more than 20 years.
    The Leadership Conference is the Nation's premier civil and 
human rights coalition, charged to promote and protect the 
civil and human rights of all persons in the United States.
    He recently retired as the University of the District of 
Columbia David A. Clarke School of Law first Joseph Rauh Chair 
of Public Interest Law.
    That is a pretty long sentence, Mr. Henderson, but that is 
your experience.
    Next, Sara Frankenstein is a partner at Gunderson, Palmer, 
Nelson & Ashmore, in Rapid City, South Dakota. She practices in 
the areas of civil litigation, civil rights, employment law and 
election law, among other things. She is also the vice chair of 
the South Dakota State Advisory Committee to the U.S. 
Commission on Civil Rights.
    Again, thank you to the witnesses for your testimony today. 
We will now begin with Mr. Saenz.
    You are recognized for five minutes.

  STATEMENTS OF THOMAS SAENZ, PRESIDENT AND GENERAL COUNSEL, 
  MEXICAN-AMERICAN LEGAL DEFENSE AND EDUCATIONAL FUND; JANAI 
 NELSON, ASSOCIATE DIRECTOR-COUNSEL, NAACP LEGAL DEFENSE FUND; 
  MICHAEL WALDMAN, PRESIDENT, BRENNAN CENTER FOR JUSTICE, NYU 
   SCHOOL OF LAW; WADE HENDERSON, INTERIM PRESIDENT AND CEO, 
   LEADERSHIP CONFERENCE ON CIVIL AND HUMAN RIGHTS; AND SARA 
   FRANKENSTEIN, PARTNER, GUNDERSON, PALMER, NELSON & ASHMORE

                   STATEMENT OF THOMAS SAENZ

    Mr. Saenz. Thank you. Good morning, Mr. Chair, honorable 
members.
    As President of MALDEF, I lead an organization that has for 
53 years now worked to promote the civil rights of all Latinos 
living in the United States.
    Central to that mission has been our efforts over the years 
legislatively and in court to protect the voting rights of 
Latino citizens, the right of every Latino citizen to cast an 
effective vote.
    In the Latino community since at least 1981, every year 
following a Decennial Census has been a year of great political 
opportunity as each succeeding Census has demonstrated the 
substantial growth and dispersion of the Latino community, 
including a growth in the Latino voting population. Absent some 
overwhelming and disparate undercount in the 2020 census, we 
expect a similar outcome from the 2020 Census.
    Although we do not yet have the subpopulation data for the 
Decennial Census, the Census Bureau's own American Community 
Survey estimates show that Latinos accounted for just over half 
of the entire Nation's population growth between 2010 and 2019.
    ACS data also estimates that Latinos made up over 44 
percent of the entire Nation's growth in citizen, voting-age 
population, a suitable proxy for eligible voters, between 2009 
and 2019.
    However, one consequence of this continued growth in the 
Latino community is that there is little question that the 
growth nationally of the Latino community and its potential 
voting impact is seen by some as a threat to their political 
power. This has had two major effects.
    First, it has resulted in Latinos becoming central to 
numerous false assertions questioning the integrity of our 
elections. These false assertions with regard to the Latino 
community generally take the form of completely unsupported 
assertions that Latino immigrants who are not yet citizens are 
voting in substantial numbers.
    Political forces use these false assertions to back up 
onerous voting requirements that restrict the right to vote of 
Latinos and other populations.
    This includes new and more onerous voter identification 
requirements, new requirements to provide documented proof of 
citizenship in order to register, limitations on voter 
assistance in Spanish and other languages, attempts to 
proliferate in Spanish false information about the voting 
process, discriminatory targeting of in-person and absentee 
voters for challenge based on Latino surnames, and even in 
attempts to intimidate less experienced voters through the 
stationing of uniformed guards at polling places.
    But the second impact of this concern about the growth of 
Latino political power by some has taken the form of 
manipulation of our governance structures, including the 
perpetuation or reintroduction of at-large voting or the 
failure to acknowledge and incorporate the growth of the Latino 
community in the decennial redistricting process.
    To give just two examples. Following the Shelby County 
decision, the city of Pasadena, Texas, decided to shift from 
eight districted seats on its city council to six districted 
seats and two at-large seats. The sole purpose of this creation 
of two at-large seats was to restrict and prevent the growing 
Latino voting population from electing a majority to the city 
council.
    With respect to redistricting, I will give another example. 
Following the last Census in 2011, MALDEF identified eight 
counties in the State of California, my home State, that should 
have drawn an additional Latino majority district on their 
five-member County Board of Supervisors, but failed to do so.
    Because of the arduous cost and effort involved in 
challenging this kind of discriminatory redistricting, through 
the course of a decade we were only able to challenge--
successfully, I add--one jurisdiction, Kern County.
    The fact is that the challenges, in the face of those who 
believe that the growth of Latino populations is a threat to 
their political power, are many.
    While a rigging of the system to embed the power of 
incumbent long-term officeholders in the face of a newly 
ascendent population like the Latino population may be 
symptomatic of human nature, it cannot be characteristic of a 
thriving democracy.
    We cannot address this system only through litigation that 
is costly and inefficient. This is not a time to shrink from 
efforts to encourage broader participation of all eligible 
citizens in voting.
    Congressional action to preserve voting rights is essential 
as we commence redistricting and as we face the continued false 
invocation of phantom threats used to justify the targeting of 
all voters of color.
    At MALDEF, we call upon the Congress to take action to 
address this ongoing problem and ensure that the voting rights 
of all Americans can be preserved and expanded.
    Thank you.
    [The statement of Mr. Saenz follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
      
    Chairman Butterfield. And we thank you for your testimony.
    At this time, the Chair will recognize Ms. Nelson for five 
minutes.
    Ms. Nelson.

                   STATEMENT OF JANAI NELSON

    Ms. Nelson. Good morning. Thank you very much for allowing 
me to testify, Chair Butterfield, Ranking Members Steil and 
Davis, and members of the committee.
    My name is Janai Nelson, and I am the Associate Director-
Counsel at the NAACP Legal Defense and Educational Fund.
    Since our founding in 1940 by Thurgood Marshall, LDF has 
led the fight to secure, protect, and advance the rights of 
Black voters.
    Despite the guarantees of the 14th and 15th Amendments and 
the Voting Rights Act, however, racial discrimination and 
targeted suppression of Black voters persists. And in the 
infamous 2013 Supreme Court decision Shelby County v. Holder, 
we saw the beginnings of voter suppression metastasize in our 
country.
    By disabling Section 5 of the Voting Rights Acts, Shelby 
unleashed systematic attacks on the voting rights of racial and 
language minorities.
    Yet, one of the solutions to this assault on our democracy 
lies in the very decision that instigated it. And writing for 
the 5-4 majority of the Court, Chief Justice Roberts expressly 
invited Congress to update Section 5's preclearance formula to 
reflect modern conditions.
    For 8 years, though, Congress has failed to act, leaving 
voters of color under attack and leaving our democracy at risk.
    In LDF's report, ``Democracy Diminished: State and Local 
Threats to Voting Post-Shelby,'' we have maintained an ongoing 
catalog of the discriminatory voting changes in jurisdictions 
formerly protected by Section 5, changes that preclearance 
likely would have prevented.
    Without Section 5, we must now rely on case-by-case 
litigation under the Constitution and under another provision 
of the Voting Rights Act, Section 2, which has now become the 
primary statutory check on racial discrimination in voting.
    In fact, according to the U.S. Commission on Civil Rights, 
in the first 5 years following Shelby, an unprecedented 61 
lawsuits were filed under Section 2 of the Voting Rights Act. 
Twenty-three of these cases were successful. By contrast, in 
the 5 years before Shelby, only five Section 2 cases were won.
    This means that after Shelby, after Section 5 was disabled, 
the rate of successful Section 2 litigation quadrupled. And 
these cases arose predominantly in jurisdictions formerly 
covered by Section 5.
    I will give you a few examples.
    In 2013, LDF sued the State of Texas to stop implementation 
of its discriminatory voter ID law, a law previously blocked by 
Section 5 which Texas revived within hours of the Shelby 
decision.
    That litigation produced multiple court findings that 
Texas' voter ID law violated Section 2, including a finding of 
intentional racial discrimination against Black and LatinX 
Texans. But by 2018, when the case concluded, thousands of 
voters have been disenfranchised in hundreds of State, local, 
and Federal elections.
    In 2016, the largely White city of Gardendale, Alabama, 
attempted to secede from the more racially diverse Jefferson 
County School Board, which would have transferred Black voters 
from a districted election system where they have some 
representation to an at-large system where they have no 
representation. The 11th Circuit blocked secession in 2018 
after LDF successfully proved Gardendale was motivated by 
racial discrimination.
    In 2018, LDF also filed a suit on behalf of students at 
Prairie View A&M University, a historically Black university in 
Waller County, Texas. The county had refused to provide equal 
early voting access on the university's campus, even though 
students lack transportation and rely on early voting to access 
the franchise. That litigation is ongoing.
    In 2019, LDF and our allies sued to stop Florida from 
requiring people with past felony convictions to pay all fines 
and fees before registering to vote, a legislative overreach 
that contradicted the will of Florida voters in passing 
Amendment 4. However, the 11th Circuit reversed the district 
court's favorable ruling and blocked thousands of returning 
citizens from voting.
    In 2020 alone, we have filed five Section 2 cases. And this 
year, in 2021, we have filed two more challenging voter 
suppression bills in Georgia and in Florida.
    But, as my colleagues have said, this case-by-case 
litigation is no match for this national democracy crisis. This 
year alone, at least 14 States have rolled back early and mail 
voting, added new hurdles for voter registration, imposed 
burdensome and unnecessary voter identification requirements, 
stripped power from State and local elections to enhance voting 
access, and taken other steps to make voting more difficult.
    Litigation is a blunt instrument. It is costly and slow. 
Victories typically come only after a law has been in place for 
several elections, irreparably harming countless voters. 
Preclearance is necessary because it blocks these 
discriminatory voting laws and changes.
    In fact, the recent wave of voter suppression bills would 
likely never have been introduced under preclearance. The 
deterrent effect was Section 5's genius. It stopped 
discrimination before the harm occurred.
    We urgently need that prophylactic legislation now. It is 
unacceptable that in 2021, 56 years after the VRA's passage, 
the right to vote remains so very underprotected.
    The celebrated turnout in registration rates among Black 
voters occurred despite a litany of unequal obstacles and 
because of Herculean efforts by civil rights groups, 
organizers, and activists, and Black voters' sheer 
determination and resilience. This model is not sustainable nor 
is it acceptable.
    We urge Congress----
    Chairman Butterfield. Ms. Nelson, your time is expired. I 
hate to break the news to you, but your time--you may complete 
the sentence.
    Ms. Nelson. Thank you. We urge Congress to safeguard the 
integrity of our democracy and fulfill the generations-long 
project of perfecting our Union.
    Thank you very much for your time.
    [The statement of Ms. Nelson follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Chairman Butterfield. And thank you, Ms. Nelson. And would 
you please give my best regards to the LDF staff. I have a 
longstanding friendship and relationship with LDF.
    You know, I get a lot of credit in North Carolina for 
voting rights litigation back in the 1980s, but much of that 
credit is overrated. It was the Legal Defense Fund that led the 
way and financed the lawsuits and did all of the heavy lifting 
in those cases.
    So please give my regards to LDF. And I wrote down a few 
names that I recall during those days: Jack Greenberg, Napoleon 
Jones, Lani Guinier, Julius Chambers, Leslie Winner, Elaine 
Jones, Ted Shaw, and the list goes on and on.
    And all of those people would not have been possible 
without Charles Hamilton Houston and Thurgood Marshall.
    I just had to get that into the record, because it is 
accurate. It is a fact.
    Thank you, thank you, thank you.
    At this time, the Chair will recognize our next witness, 
and I guess that is going to be Mr. Waldman.
    You are recognized for five minutes.

                  STATEMENT OF MICHAEL WALDMAN

    Mr. Waldman. Thank you, Chairperson Butterfield, Ranking 
Member Steil, members of the subcommittee. Thank you for the 
opportunity to be here with you at this hearing.
    This is a critical moment for our democracy and a critical 
aspect of the fight for our democracy. As you all know, the 
Voting Rights Act was perhaps the most effective civil rights 
law our Nation has ever had, vital to the drive for a vibrant 
multiracial democracy in our country. As you know, 8 years ago, 
the U.S. Supreme Court gutted the most effective part of that 
law.
    Members of Congress of both parties have the power and the 
duty to right that wrong, to modernize the Voting Rights Act 
and strengthen it to defend our democracy so all Americans can 
vote.
    I want to make three points, building on the testimony that 
others have said:
    First of all, as we have just heard, for the past 8 years 
the absence of preclearance, the absence of a strong Voting 
Rights Act, opened the way for racially discriminatory voting 
rules and practices across the country.
    For example, voter purges. Removing voters from the rolls 
can be appropriate or it can remove eligible voters. We found 
in Brennan Center research that voter purge rates soared in the 
States that previously had been covered by Section 5 of the 
Voting Rights Act preclearance, 40 percent higher than the rest 
of the country. All told, 17 million people nationwide removed 
from the rolls in just 2 years.
    We have seen polling place closures and all kinds of other 
activities around the country that have been described and 
documented.
    And now in the wake of the 2020 election, the absence of a 
strong Voting Rights Act has opened the way for the attack on 
voting that is taking place right now in the States.
    We keep track of this. As of May 14 of this year, lawmakers 
in States had introduced more than 389 bills in 48 States that 
one way or another would curb the vote or restrict voting.
    And I should note that these are not backbenchers throwing 
a bill in the hopper to get a good few hours on Twitter. These 
are bills that are passing and becoming law. Seventeen States 
have enacted new laws that in one way or another restrict 
access to voting, and these laws often, uncannily, target 
voters of color.
    And, again, were the Voting Rights Act in full effect, were 
preclearance in full effect, these laws would be scrutinized. 
Many would be blocked. Many would be blunted.
    The second point I want to make is that these racially 
discriminatory laws are based on a lie. American elections are 
secure and accountable. Voter fraud in the United States is 
vanishingly rare. You are, as has been noted many times, more 
likely to be struck by lightning than to commit in-person voter 
impersonation in this country.
    And contrary to the big lie about the 2020 election, it was 
extraordinarily well run, as confirmed by the Department of 
Homeland Security, as confirmed by 60 courts, as confirmed by 
the Justice Department under President Trump.
    And I will note that this week the Republican legislature 
in Michigan put out a report confirming there was no 
substantial voter fraud there and the election was well run 
there.
    Yet, this is a lie that justifies a conspiracy theory that 
provides the pretext for discriminatory voting laws being 
pushed and passed all over the country.
    And I should note again the racial subtext, unfortunately, 
is rarely far from the surface.
    When former President Trump targeted and called out and 
sought the removal of the effective votes from voters in 
Detroit, in Philadelphia, in Milwaukee, in Atlanta, it wasn't 
very subtle what the implications of that were.
    All the more reason why a conspiracy theory should not be 
allowed to deny people the right to vote and why Congress and 
Members of both parties can once again protect that right to 
vote with a strong Voting Rights Act.
    I will note finally, as a third point, that it is important 
that this legislation be understood to work in tandem with the 
For the People Act, with H.R. 1, which has already passed the 
House of Representatives. Both are vital. Both are needed.
    The John Lewis Voting Rights Advancement Act, in effect, is 
forward-looking. It deals with preclearance for future 
legislative proposals. H.R. 1 would set national standards for 
elections, including laws that have been passed right now. Both 
are constitutional. Both are well crafted. Both are needed. We 
urge the support of Congress for both of them.
    Finally, as you know, John Lewis' name is on this bill. He 
gave so much of his blood and of his own soul and courage to 
bring the Voting Rights Act into effect. Members of both 
parties over many decades were together in this effort. We urge 
you to once again carry forward his legacy, carry forward his 
name, by strengthening, modernizing this vital piece of 
American law.
    Thank you.
    [The statement of Mr. Waldman follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Chairman Butterfield. And thank you.
    It should be noted that the John Lewis Voting Rights 
Advancement Act has not been introduced, because we have not 
completed these hearings. But as soon as we can finish all 16 
of our hearings among the three committees, it is our sincere 
hope that it will be filed very quickly. And we are hoping that 
it will be given the label H.R. 4. And, hopefully, we can 
decide it and send it over to the Senate for its approval.
    Mr. Henderson, you are recognized for five minutes.

                  STATEMENT OF WADE HENDERSON

    Mr. Henderson. Thank you, Chairman Butterfield, Ranking 
Member Steil, and members of the subcommittee. Good morning, 
and thank you for this opportunity.
    And thank you, Chairman Butterfield, for your leadership in 
calling these critically important hearings on how we ensure 
that all of us, no matter our color, ZIP Code, or income, have 
an equal say in our democracy.
    In his final message to the Nation, the late Congressman 
John Lewis left his marching orders. He called on us to 
remember that, quote, ``Democracy is not a state. It is an 
act.'' He said that every generation must do its part to build 
the Beloved Community.
    I am deeply heartened that Americans are heeding his call. 
Across diverse backgrounds, amid a pandemic, people turned out 
to vote in unprecedented numbers. It was an awe-inspiring 
moment for the world's oldest and greatest democracy and a 
declaration of the possibility to realize our highest ideals. 
Indeed, voting is the language of democracy.
    Some lawmakers, however, have turned their backs on the 
Congressman's noble call. They are trying to take us backwards 
by creating barriers for Black, Brown, indigenous and new 
Americans who want to exercise their right to vote.
    Our Nation is faced with reconciling the contradiction of 
who we say we are and who we actually are. Congress must 
swiftly set to make real the promise of democracy for all.
    We didn't get here overnight. Eight years ago tomorrow, the 
Supreme Court decided Shelby County v. Holder and decimated the 
heart of the Voting Rights Act. Section 5 allowed the Justice 
Department to block proposed discriminatory voting restrictions 
in places with pervasive histories of discrimination and 
ensured voting changes were public and transparent.
    Despite the best efforts of the leadership conference and 
our members to protect the franchise, nearly a decade of 
antivoter tactics has exacerbated a harmful toll.
    Without the VRA's strongest tool to fight discrimination, 
lawmakers continue to wage a coordinated attack on Black and 
Brown voters. The deluge of antivoter laws is unrelenting. 
Voters of color face intimidation, burdensome ID requirements, 
voter purges, and disenfranchisement laws, built on top of mass 
incarceration.
    States cut back early voting, eliminated same-day voter 
registration, and shuttered polling places. In 2020, 
politicians exploited the pandemic by imposing additional 
barriers to the ballot.
    But democracy prevailed, because the people prevailed. 
Voters refused to give up their power. This revealed not only 
the American people's resiliency, but also our collective will 
to ensure our democracy works for everyone.
    Yet, the assault on our freedom to vote has only grown more 
dire. After a historic turnout, politicians peddled lies, tried 
to discount the votes of communities of color, and attempted to 
override the will of the people. Their efforts ultimately 
fueled a deadly attack on this very institution by armed right-
wing militants.
    Now they have doubled down on attempts to reshape the 
electorate for their own gain. Since January, State lawmakers 
have introduced, as my colleague Mr. Waldman said, 389 
antivoter bills and enacted 22 laws.
    These restrictions disproportionately burden voters of 
color. They resemble the very strategies that led Congress to 
adopt the Voting Rights Act in the first place.
    In her dissenting opinion in Shelby County, the late 
Justice Ruth Bader Ginsburg wrote that throwing out 
preclearance when it successfully stops discrimination is, 
quote, ``like throwing away your umbrella in a rainstorm 
because you are not getting wet.''
    Today we are drenched. This is our moment to act, right 
now. We have no other choice if we want to fulfill the promise 
of our democracy that every voice and every vote count. 
Congress must pass the John Lewis Voting Rights Advancement Act 
and restore the VRA to its full strength.
    Shortly before President Johnson signed the VRA into law, 
25-year-old John Lewis led more than 600 people across the 
Edmund Pettus Bridge. State troopers unleashed brutal violence 
and our hero was beaten and bloodied.
    But he never gave up the fight. For decades, he implored 
his colleagues in these hallowed halls to realize equal 
opportunity for all.
    Before his death, he wrote, and I quote, ``Time is of the 
essence to preserve the integrity and promises of our 
democracy.''
    Members of Congress must now answer his call with all the 
force you can muster.
    Thank you for allowing me to testify this morning.
    [The statement of Mr. Henderson follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    Chairman Butterfield. And thank you, Mr. Henderson.
    At this time, the Chair will recognize Ms. Frankenstein. 
Some may pronounce it Frankenstein, but I say Frankenstein.
    You are now recognized for five minutes.

                 STATEMENT OF SARA FRANKENSTEIN

    Ms. Frankenstein. Thank you, Chairman Butterfield, Ranking 
Member Steil, Ranking Member Davis, and members of the 
committee.
    My name is Sara Frankenstein, and I am a private practice 
attorney in Rapid City, South Dakota. I practice voting rights 
and election law and advise election administrators in the 
Midwest in all aspects of elections and voting rights. I was 
lead counsel in numerous Federal Voting Rights Act cases and 
other election disputes, including redistricting and felony 
voting issues.
    These matters often involve issues unique to American 
Indian voting, as well as Tribal and county governmental 
concerns. I am presenting information on two areas of Voting 
Rights Act litigation relevant to American Indian populations 
within States and counties.
    The first is the issue of preclearance wherein South Dakota 
previously had two counties which were deemed covered 
jurisdictions in 1975. South Dakota's two counties previously 
covered were not added initially, but after additional tests 
were promulgated in 1972 which found that counties should be 
added to the preclearance list if they maintained a test or 
device, which included holding elections in English, and the 
county had less than 50 percent of voting-age citizens 
registered to vote did, in fact, vote in the November 1972 
election.
    In 1975, two counties in my State of South Dakota were 
added as covered jurisdictions. In 1977, our then South Dakota 
attorney general determined that the preclearance requirements 
were an unworkable solution to a nonexistent problem and 
advised that the State should not seek preclearance for those 
laws while he pursued litigation to exempt South Dakota from 
the VRA preclearance requirements.
    What that did was create a backlog of 3,048 South Dakota 
laws that needed to be submitted for preclearance once the 
State and actually the two counties that were covered were sued 
for that very purpose.
    One might think that this scenario would present the very 
method to uncover discriminatory or retrogressive statutes, 
administrative rules, and other laws that were passed by a 
legislature over 25 years when its legislators had no threat--
or no feasible threat--hanging over their heads, because they 
understood that they did not need to seek preclearance for 
these laws.
    One might expect that a number of these 3,000-plus laws 
would be found objectionable or otherwise denied preclearance.
    How many of South Dakota's 3,048 laws and administrative 
rules were denied preclearance? None.
    Such facts are a strong indicator that preclearance is not 
needed in South Dakota.
    Our individual counties, should they be subject once again 
to preclearance requirements? In my experience, including 
representing these counties themselves, they are often 
reservation counties.
    As I say, reservations make up a majority or maybe all of 
these counties. They are run by majority American Indian 
leaders. And, in my experience, the American Indian leaders do 
not pass local ordinances that deny or abridge their own 
people's ability to vote.
    County election officials work with their respective Tribes 
to find polling places, which are usually determined by the 
Tribe. To give you an example of the burden that is placed upon 
these reservation counties when they are under preclearance is 
typically found in the issue of moving polling places.
    An example that I had in representing a county was a Tribe 
who had previously indicated a polling place could be located 
in a certain Tribal building indicated a few days before the 
election that, in fact, the county could not use that polling 
place, but offered up another Tribal building that it found 
more suitable.
    I, on behalf of that reservation county, sought expedited 
preclearance from the Department of Justice. I did not get a 
response before the election. The county was placed in the 
situation of not knowing whether it should go forward with the 
new location, trying to hold an election in a place the Tribe 
said it could not.
    Finally, after the election, we received preclearance being 
granted by the Department of Justice.
    It demonstrates the situation, however, when a bureaucracy 
could move slowly, but yet we need to have certainty in how to 
run our elections back here in South Dakota.
    Second, redistricting hasn't been a recent issue. We have 
had no redistricting cases here in the last decade. But what we 
have seen are Voting Rights Act vote denial claims, 
particularly in light of the issue of satellite offices.
    Our county courthouses are not located on Indian trust land 
generally, so to engage in in-person absentee voting in a 
brick-and-mortar building, one needs to leave the reservation 
and travel to the county seat.
    Because that requires distance, transportation, et cetera, 
we have had success working with counties to implement HAVA 
funds, Help America Vote Act funds, in order to fund those 
types of offices.
    Now, efforts to require preclearance in these counties 
don't ameliorate or address those underlying funding problems 
in reservation counties.
    [The statement of Ms. Frankenstein follows:]
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
       
    Chairman Butterfield. Thank you. Thank you for your 
testimony.
    Ms. Frankenstein. Thank you.
    Chairman Butterfield. That completes the testimonies of the 
witnesses. We will now move to member questions.
    It looks like my friend from California, Mr. Aguilar, will 
go first.
    Mr. Aguilar, you are recognized for five minutes.
    Mr. Aguilar. Thank you, Mr. Chairman. I appreciate it.
    Mr. Saenz, in your testimony, you stated that congressional 
action or inaction today will have a critical impact on the 
enduring condition of our democracy 5 years from now.
    Can you explain how the failure of enacting a comprehensive 
voting rights bill will affect generations to come?
    Mr. Saenz. Sure. I think it is grounded in the fact that 
litigation, which is still possible, primarily under Section 2 
of the Voting Rights Act, is notoriously costly and 
inefficient. It means that as the challenges to voting rights 
proliferate, our ability, even with a reinvigorated Department 
of Justice Civil Rights Division, our ability to successfully 
challenge all of those deprivations of voting rights is 
limited.
    That is when legislation is most necessary. The most 
important piece of that is to reintroduce preclearance as an 
operative tool to prevent the implementation of changes that 
restrict the rights of minorities to vote.
    Mr. Aguilar. Could you also expand on how the Latino 
population is already feeling the impact from some of these 
attempts to seize control from individuals and eliminating the 
right to vote by using reduced methods?
    Mr. Waldman talked a little bit about that and the number 
of State measures that have proceeded.
    Can you talk about their impact to the Latino population?
    Mr. Saenz. Absolutely. Thank you, Congressman Aguilar.
    Because the Latino population is growing as quickly as it 
is, we have substantial numbers of new voters. And it is 
particularly new voters who are affected by these attempts to 
restrict the right to vote, whether that takes the form of 
requiring new voter registrants to provide proof of citizenship 
not required of their predecessors, or new restrictive voter ID 
provisions where voter ID is not readily and costlessly 
available to those new voters.
    So the impact on the Latino community as it expands and 
grows and produces more and more voters who become eligible to 
vote is substantial of all of these efforts to deter 
participation.
    Mr. Aguilar. Thank you, Mr. Saenz.
    Mr. Waldman, could you elaborate a little bit more and talk 
about some of the harm that you see in the near and distant 
future to marginalized communities and their ability to 
exercise their right to vote if some of these measures, the 
statewide measures continue, and we don't pass anything here?
    Mr. Waldman. Well, we have had measures that have passed 
and measures that are being considered.
    In Florida, for example, where 64 percent of the voters, in 
an overwhelming bipartisan vote, voted to end that State's 
notorious voter disenfranchisement regime, felony 
disenfranchisement regime for people with past criminal 
convictions, the legislature followed up by passing a 
requirement that changed that and made it so that you could 
only get your right to vote recognized if you had paid your 
fees and fines.
    This overwhelmingly has a disproportionate impact on voters 
of color because of the way the criminal justice system works.
    In many of the measures that we have seen advanced or 
moving or passed in States across the country in the past few 
months, they have targeted activities that voters of color are 
using--and sometimes recently.
    As was mentioned earlier, vote-by-mail, for example, was 
never particularly controversial. But when communities of color 
began to use that method during the pandemic very successfully, 
suddenly it became the target of efforts to cut back on vote-
by-mail.
    Some have been rebuffed, some are moving forward, but there 
are ways in which you can trace the voting patterns and map it 
against these measures.
    And as you know, in the last election, despite the pandemic 
and despite voter suppression and despite the lies, it was the 
highest voter turnout since 1900. We think we ought to be 
celebrating that and not trying to undo some of the changes 
that made that possible.
    Mr. Aguilar. Thank you, Mr. Waldman.
    Back to you, Mr. Saenz.
    Section 203 of the Voting Rights Act talks about access to 
limited-English-proficient voters through language assistance. 
Many jurisdictions locally, we know, fall short of that through 
access of interpreters and other resources that are necessary.
    Can you talk a little bit about how States are failing to 
meet the needs of limited-English-proficient voters?
    Mr. Saenz. Sure. Well, failing to provide those resources 
required by Section 203 is the first barrier.
    It is often compounded when States or localities place 
limits, whether by law or in practice, on providing voter 
assistance to those who may need assistance in a language other 
than English.
    We, for example, at MALDEF are currently challenging a law 
in Arkansas that, in contravention of the Voting Rights Act, 
limits the number of voters who someone can assist when they 
need that assistance to cast an effective ballot.
    So we have failure to comply with 203, compounded by 
restrictions that contradict current law on assisting voters 
who need that assistance because they have challenges with 
language.
    And I should end, Congressman, by pointing out that all of 
this has a disparate impact, a discriminatory impact, on our 
newly naturalized voters who are folks that show by process a 
greater inclination to participate in voting but are restricted 
and prevented from doing that by these laws.
    Mr. Aguilar. Thank you so much.
    My time is up, Mr. Chairman. Yield back.
    Chairman Butterfield. Thank you, thank you.
    At this time, the chair recognizes the Ranking Member of 
the full Committee for five minutes.
    Mr. Davis. Thank you, Mr. Chair. Always good to follow my 
friend Mr. Aguilar. Twice in 1 day. I couldn't ask for more 
fun, sir.
    Mr. Saenz, I would like to start with you.
    Why did MALDEF sue to prevent the new Illinois legislative 
map from going into effect?
    Mr. Saenz. We sued because the legislature, as you know, 
used ACS figures instead of Decennial Census figures.
    I do want to make clear that neither our clients, nor 
MALDEF, seeks to change the legislature's ability to draw the 
lines. As you know, there is a State constitutional provision 
that could shift that responsibility from a legislature to a 
commission.
    But it appears clear to me that it was not the intent of 
that provision to shift that responsibility based on the 
happenstance of the delay in the release of Decennial Census 
data.
    So all we seek in that lawsuit is to have the lines 
redrawn, using Decennial Census data once that data is made 
available by the Bureau later this summer.
    Mr. Davis. Well, aside from the clear constitutional 
issues, sir, why is it important that States like Illinois use 
Census data instead of population estimates when drawing maps, 
as you just briefly talked about your lawsuit doing?
    Mr. Saenz. Sure. Thank you, Congressman.
    The reason is that the Census is an actual enumeration, as 
you know, from household questionnaires, of our entire 
population, whereas the ACS is estimate data based on a sample 
of households across the country.
    Because it is a limited sample, the Census Bureau does not 
provide numbers except over a 3- to 5-year average. So if you 
redistrict using ACS data, you will actually be looking at 
population estimates that go back to 2015, rather than data 
from the Decennial Census that is from 2020. So among other 
problems, it is outdated data if it is used to redraw our 
lines.
    Mr. Davis. Sir, as you know, the Chicago area has grown in 
Latino voting-age population exponentially over the last 
decade. Do you and your organization support drawing another 
Hispanic majority district in the Chicago area?
    Mr. Saenz. We support it if the Census data indicates that 
an effective district that would allow Latino voters to elect a 
candidate of choice can be drawn. That is something we can't 
assess completely until we have that Decennial Census data.
    But certainly it has long been our goal, particularly in a 
context as you have indicated in Illinois, the Latino community 
is growing while the whole State's population is shrinking. In 
fact, as you know, the apportionment here shows that the 
State's population did shrink over the last decade, that we 
know from ACS estimates that the Latino population in Illinois 
grew by over a hundred thousand or more people.
    So if it is possible to draw a second effective--another 
effective Latino majority district, we certainly would be in 
favor of that.
    Mr. Davis. Great. I look forward to working with you 
because I think we know that the only thing that would stop 
another Hispanic district from being drawn would be pure 
partisan politics.
    Ms. Frankenstein, can you speak to the Committee about 
particular Federal impediments you have identified that may 
reduce the number of Native Americans who cast ballots in 
Federal elections?
    Ms. Frankenstein. One issue is the popular area of vote-
denial claims for lack of satellite offices on reservations.
    I can tell you that working with my clients who are elected 
county officials regardless of their race, whether they are 
majority White, whether they are majority American Indian, or 
all American Indian county commissioners, they all face the 
same concern, and that is lack of funding for such offices and 
lack of space, buildings to actually locate those.
    Where we have found success, however, is where we are able 
to utilize HAVA funds in order to hire, train, and staff those 
offices, and pay a lease agreement in order to fund those. I do 
not believe that preclearance requirements would help in this 
regard in any way, but it is necessary that we allow--or we 
provide funding, through HAVA or otherwise, to those cash-
strapped counties.
    Our reservation counties are funded through property taxes, 
and land held in trust does not contribute to the property tax 
base. So the very counties which have more American Indian 
population have less money to work with. Those are the counties 
that are sued, requesting satellite offices, and they don't 
have the funds to create those offices.
    So I would encourage more of a focus on funding to allow 
those capabilities in those counties and less focus on 
preclearance requirements for those cash-strapped counties.
    Mr. Davis. Great. Are there any rural mail delivery issues 
that are part of this?
    Ms. Frankenstein. There can be. Reservation areas, 
oftentimes they lack a post office or one nearby. It is common 
for a family--for large families to live together and share a 
mailbox.
    There are concerns among Native American voters as to how 
to get their ballot to the mailbox or to the post office, and 
they tend not to trust the postal system. Therefore, they more 
heavily rely upon election day voting and in-person absentee 
voting.
    Mr. Davis. Great.
    I see my time is expired. Thank you to the witnesses.
    And thank you, Mr. Chair. I yield back.
    Chairman Butterfield. And thank you, Mr. Davis.
    At this time, the Chair recognizes the gentlelady from New 
Mexico, Ms. Leger Fernandez.
    Ms. Leger Fernandez. Thank you, Mr. Chairman.
    The witness testimony today and in our earlier hearings 
laid out multiple examples of how after the Shelby County 
decision communities were forced to bring Section 2 cases as 
States formerly under preclearance immediately passed laws--or 
recently as well--to restrict Asian Americans, Latinos, Native 
Americans, Black Americans access to the polls and their 
ability to elect candidates of their choice.
    They won. Right? They won those lawsuits, many of those 
lawsuits, proving that gerrymandering and changes in laws and 
procedures were unlawful, in contrast to, as Mr. Waldman noted, 
the big lie that there has been fraud in elections, which I 
would note the courts have rejected. The courts have found that 
voting discrimination is real and still happening.
    Mr. Saenz, it is great to see you again.
    Mr. Saenz was the vice president of litigation at MALDEF 
when I was on the board, so I appreciate having the opportunity 
to ask him questions again.
    Your written testimony noted that it took a decade of 
litigation to address Texas legislators' splitting of Latinos 
after primarily Latino population growth gave Texas four new 
districts. We heard earlier today of a 7-year battle by the 
Navajo Nation in Utah.
    What are the policy consequences for the community when 
election after election occurs under a system that has deprived 
Latino voters of the right to vote or elect a representative of 
their choice?
    Mr. Saenz. Thank you, Congresswoman. Great to see you 
there.
    As you know from your experience with Section 2 litigation, 
the consequence is elections that go forward under flawed 
discriminatory systems undermine confidence in our democracy. 
Because a court later proclaims that elections occurred in the 
districts that should not have been drawn the way they were, it 
means that folks were deprived of representation that reflects 
their views over a significant period of time.
    I should note that that Texas litigation did last 8 years. 
Fortunately there, there were interim maps put in place. But 
those interim maps did not reflect all of the changes 
ultimately required by a case that went to the United States 
Supreme Court twice over the course of those 8 years.
    So even in that system with an interim map in place that 
addressed some of the problems, all of the problems ultimately 
identified by the three-judge court were not addressed by those 
interim maps.
    And the biggest problem, as you also know from your 
experience, is that Section 2 litigation is costly. It means 
that organizations like MALDEF--and there were many others 
involved in that Texas litigation--that our efforts are 
diverted from our ability to challenge other deprivations of 
rights in other parts of the country.
    Ms. Leger Fernandez. Yes. And in Section 2 cases, we also 
must prove--and do prove--that the failure to have 
representation often leads to policies, legislative policies, 
that don't assist those particular communities. So the harm is 
compounded and compounded.
    Mr. Henderson, some of my colleagues have cited the record 
voter 2020 turnout as evidence that voter suppression is not an 
issue. What is your response to this?
    Mr. Henderson. Well, thank you for the question, 
Congresswoman.
    We have seen in a number of jurisdictions that, 
notwithstanding the extraordinary turnout by voters of color--
and I will cite one example, Milwaukee, Wisconsin.
    In the primary of 2020, Milwaukee had previously 180 
polling places that were reduced to 5. That meant that voters, 
even with an expanded population, were compressed into casting 
a vote in a narrower group of eligible precincts.
    That meant that in many instances lines of 4 and 5 hours in 
length were required in order for an individual to cast their 
vote.
    Now, this was at a time when the county in which Milwaukee 
sat was a hotbed of COVID pandemic development. And, in fact, I 
believe in my testimony I cite the fact that the county had, I 
believe, the highest death rate of African American voters, et 
al.
    And so what we see in county after county is, 
notwithstanding the increase in voters, there has often been an 
effort to winnow down the number of places that voters could 
cast ballots. And that meant, of course, they were faced with 
the prospect of long lines under difficult circumstances in 
trying to cast their ballot. And we have only now begun to 
really assess that for its true impact.
    Ms. Leger Fernandez. Thank you, Mr. Henderson.
    In New Mexico, we saw some of those lines, and in H.R. 1, 
we have provided that there is a 30-minute time limit by which 
all voters--all voters--should be able to cast their ballots.
    Mr. Chairman, my time has expired, and I yield back.
    Chairman Butterfield. Thank you.
    The gentleman from Wisconsin. I don't know--you are not 
from Milwaukee, but you are from the State of Wisconsin.
    Mr. Steil. I have the great honor of representing part of 
Milwaukee County.
    Chairman Butterfield. You do?
    Mr. Steil. But I am from Wisconsin, from Janesville.
    Mr. Butterfield. All right. You are recognized for 
rebuttal.
    Mr. Steil. Thank you. I am actually going to be adding onto 
the comments. I don't know that this will be a full rebuttal.
    Before I dive in, I would like to just insert to the 
record, if I can, two articles. One, a Journal Sentinel article 
titled, ``Eric Holder Addresses Wisconsin Redistricting Panel, 
Prompting Criticism.'' And another article titled, ``Washington 
Post Denounced for Report on Stacey Abrams, Dems' `Evolution' 
on Voter ID.''
    Chairman Butterfield. Both articles, without objection, 
will be received.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    Mr. Steil. Mr. Henderson, I appreciate you bringing up the 
case of Milwaukee. I think it is actually really important. I 
don't think everybody fully appreciates how the spring election 
in Milwaukee played out, how it played out very differently 
than other cities across the State of Wisconsin during the 
spring 2020 election.
    Milwaukee, correctly, as you noted, did reduce the number 
of polling locations, and it is correctly identified by my 
colleague here, from 180 to 5. And I think that is a pretty 
important point to recognize.
    Do you know who appoints the elections administrator in the 
city of Milwaukee?
    Mr. Henderson. I do not.
    Mr. Steil. It is a good--it is a worthwhile point, because 
I think it would enhance your written testimony. It is the 
Democratic mayor of Milwaukee, Tom Barrett.
    It is also worth noting and it is kind of interesting, at 
that election, he was actually running in a primary for the 
election for mayor against an African American woman. And so I 
think it is worth noting.
    And I think it is actually interesting, the last time 
Republicans held the mayorship of Milwaukee, the city, is 1908. 
And the last time anyone held the--besides a Democrat--was 
actually 1960, and it was a Socialist.
    So it went from Republican to Socialist to Democrat, and it 
has been held by Democrats since 1960.
    And so while I share some of your concerns about what 
played out, I think it is very worthwhile for this Committee to 
recognize that it was under a period of time of Democratic 
control, and it was a Democratic appointee that made the 
decision to reduce the number of polling locations from 180 to 
5.
    And meanwhile, 70 miles away to the west, another very 
liberal city, Madison, Wisconsin, actually only reduced their 
polling locations from 92 to 66.
    So in an area that was disproportionately African American 
in the city of Milwaukee, a Democratic-appointed elections 
official made that decision.
    I think your testimony is spot on, but I think it could be 
enhanced by noting some of that background, and I hope you have 
the opportunity to look into it.
    Mr. Henderson. Mr. Steil, may I respond? Because I think 
you are making a point that my organization emphasizes 
regularly.
    We are a nonpartisan organization. We operate under the 
view that voting really is the language of democracy. It is not 
a partisan issue. It is a national issue.
    And regardless of who is in control, the evidence that you 
cited and that I cited is evidence of the fact that the voting 
laws need to be enhanced and protected for all.
    Obviously, there are--
    Mr. Steil. Let me reclaim my time. I wanted to give you the 
moment to reply, and I appreciate it. I think we do share that, 
is that we are enforcing the laws on the books. I think that is 
a very important point, that we are not changing the rules of 
the road as we go.
    But if I went back to your testimony, you noted that the 
Republican majority in the State refused to give people a few 
extra days to turn in their mail-in ballot, which I think 
actually would change the rules of the road as we go, because 
voting was ongoing at a period of time where you would look to 
then change the rules.
    Is that fair?
    Mr. Henderson. But I would argue that the pandemic clearly 
was an intervening factor that warranted a review of the voting 
procedures to determine whether amendments were necessary.
    Certainly no one would argue that as the country was 
battling the height of the pandemic and that people were dying 
at amazing rates, that we should not have taken a closer look 
at how we exercised in-person voting.
    Mr. Steil. I think we definitely should have taken a look. 
I think changing the rules of the road while voting is ongoing 
is a very dangerous path to go down.
    But let's pause that. Let me shift gears to Ms. 
Frankenstein, if I can.
    Chief Justice Roberts in the Shelby case quoted as saying 
that a lot has changed since 1975, and while racial 
discrimination, any racial discrimination in voting is too 
much, Congress must ensure that the legislation it passes 
speaks to current conditions.
    And so recognizing that the voting access for minorities in 
1964 and 1965 was very different than it is today in 2021, and 
that thankfully we have made a lot of progress in righting 
historical wrongs, is a preclearance formula necessary, in your 
opinion, Ms. Frankenstein?
    Ms. Frankenstein. In my opinion, it is not. I have cited to 
you the statistics of South Dakota and those laws that sought 
preclearance in our previously covered counties. As you heard 
me testify earlier, none were not granted preclearance.
    I think it is also an antiquated concept to look instead at 
whether ballots are offered in an indigenous language, if you 
will also look to whether or not the Tribe in the respective 
county holds its Tribal elections using an indigenous language.
    Mr. Steil. Only because we are short on time. I would love 
you to be able to keep going. I am short on time. I am 
recognizing the time.
    And, Mr. Chairman, I yield back.
    Chairman Butterfield. All right. I was distracted. Mr. 
Steil, did you yield back?
    Mr. Steil. I did yield back.
    Chairman Butterfield. Thank you, and thank you very much 
for your statements.
    The Chair will now recognize himself for five minutes, and 
I will start with Ms. Nelson.
    Ms. Nelson, I know LDF has been collecting information and 
data for as long as I can remember and probably before I was 
born. It has been a data collection agency as well as a 
litigating agency.
    Have you been collecting information since the Shelby 
County decision? And I know we don't have the time for you to 
recite it verse after verse, but can you give us a summary of 
what the record shows based on the information you have 
collected since 2013?
    Ms. Nelson. Absolutely. The Legal Defense Fund has a report 
that we admitted into the record. It is called ``Democracy 
Diminished: State and Local Threats to Voting Post-Shelby 
County, Alabama v. Holder.''
    And in that report we maintain an ongoing catalog of the 
discriminatory voting changes in jurisdictions that were 
formerly protected by Section 5. And we submit that these are 
voting changes that would likely have been prevented had 
Section 5 still been in place.
    What we have seen over time is that there has been a 
proliferation of laws across the country that otherwise would 
have never come to see the light of day, would have never 
infringed on voters' rights had Section 5 been in place.
    We know this because immediately after the Shelby County 
decision, in places like Texas and Alabama and other covered 
jurisdictions, those election officials resurrected laws that 
had been prohibited from going into effect by Section 5.
    Chairman Butterfield. Have you published these voting 
changes in your website? Have you released those?
    Ms. Nelson. We do.
    Chairman Butterfield. I know the Brennan Center does that.
    Ms. Nelson. They are on our website, and they are routinely 
updated.
    Chairman Butterfield. All right. So any citizen can go to 
your website or to the Brennan Center website and look at those 
changes. Is that right?
    Ms. Nelson. That is correct.
    Chairman Butterfield. All right. Let me just change gears, 
and the time goes so fast when you have the microphone.
    During the Juneteenth debate a few weeks ago, Congressman 
Jim Clyburn of South Carolina said one of our greatest 
shortcomings here in Congress is that we fail to communicate.
    And I think, when I go into my district and I talk about 
Section 5 and Section 2 and the importance of the Voting Rights 
Act, oftentimes those who are doubtful would ask the question, 
Why is it necessary to have a large number of African Americans 
or Hispanic Americans in an electoral district? Why is that 
important?
    And sometimes that gets me back on my heels when I get the 
question asked because the response to that is so basic and is 
so clear. It is called racially polarized voting.
    The fact of the matter is, in many places throughout the 
country--and it is not in every community--but in many places 
throughout the country a lot of voters vote along racial lines 
regardless of the qualifications of the candidate or the 
preferences of the community, which means that if African 
Americans are a minority within a community, then the majority, 
if they vote along racial lines, that inherently discriminates 
against a minority group. And when you explain that and 
communicate that to individuals, they begin to see what this is 
all about.
    The other thing that people confuse is Section 2, vis--vis 
Section 5. Section 2 is very expensive. I recall back in the 
1980s, Mr. Waldman and Mr. Henderson, it cost hundreds of 
thousands of dollars, and I suspect it is in the millions now, 
to litigate a Section 2 claim, not to mention the fact that it 
could take months or years to do so.
    I had a Section 2 claim in 1982 that it was not until 1985 
when it was finally decided by the court. And so it is very 
expensive, and it is very time-consuming.
    And the standard of proof in a Section 2 claim is not only 
intentional discrimination, but in 1982 Congress changed the 
law to a lower standard, which is discriminatory result. And so 
that is the standard that you are guided by in Section 2.
    Section 5 is so much different. That is a retrogression 
standard. You simply take the proposed change, you compare it 
to existing laws, and see if there is any retrogression in the 
effect that it has on minority voters.
    Have I said anything, Mr. Waldman, that you disagree with?
    Mr. Waldman. No. I think you have stated it very well.
    And, again, when Section 5 was in effect, it was a 
predictable regime that counties and States all across the 
country handled without much muss or fuss. It was a step 
forward for the country, and it was something that everybody 
was able to deal with. And what is needed now is, in effect, to 
modernize the coverage formula so that it can work again.
    Chairman Butterfield. My first Section 5 claim was in 1982. 
I still have the records from it. I am writing my book now, and 
so I had to refer to it the other day. And in 1982, I 
complained about staggered terms, my county commission going 
from an at-large system to staggered terms.
    And DOJ took it up, evaluated it for 60 days, they asked 
for more information. The county provided more information. And 
DOJ approved it.
    And then, after another change that took place, we finally 
litigated under Section 2 and we won the case. The county was 
divided into seven districts. And now, instead of an all-White 
board of commissioners, we have three African Americans, four 
White Americans, and everything is reasonably well. I am not 
going to say it is perfect, but it is reasonably well.
    And so the Voting Rights Act is a very serious piece of 
legislation that is deserving of our attention. It protects 
democracy.
    And, Mr. Henderson, you made a statement a minute ago that 
it is what for our democracy? It is the language, did you say, 
of our democracy? May I adopt that as one of my talking points? 
I like that. It is the language of our democracy.
    And so thank both of you, thank all of you for your 
testimony.
    Do we have any other members who have returned to the 
meeting?
    Yes?
    Mr. Aguilar. Just a point of clarification, Mr. Chairman. I 
know I speak on behalf of the Committee members. We just want 
to know if we are going to get an advanced copy of your book 
and if you can write a--I know Mr. Steil and Mr. Davis would 
really appreciate it.
    Chairman Butterfield. Well, I have been writing it--
    Mr. Aguilar. They have a lot to learn.
    Mr. Steil. It is quite the story. I would read it.
    Chairman Butterfield. I have been writing this thing, I 
want you to know, for many years now, and finally my editor 
told me a few months ago that I really needed to separate it 
into two books, one book on community history.
    Mr. Henderson's second cousin, who is also a local 
historian in my hometown, she and I are the local historians. 
And so I have been advised to separate what they call community 
history from memoirs. And so now, instead of one book, it is 
now going to be two books.
    But anyway, just for public recognition, Mr. Henderson's 
second cousin is named Lisa Y. Henderson, who is from Wilson, 
North Carolina, but lives in Atlanta, Georgia. She is a real 
scholar.
    So thank all of you. Thank all of you.
    Is there any other business to come before the Subcommittee 
before we adjourn?
    All right. I have some housekeeping matters that we need to 
attend to.
    I ask unanimous consent that we enter the following 
articles in the record.
    From Mother Jones, it is entitled, ``The Dog That Voted and 
Other Election Fraud Yarns: The GOP's 10-year campaign to gin 
up voter fraud hysteria--and bring back Jim Crow at the ballot 
box,'' end of quote.
    The next is from the Free Press of Ohio. It is entitled, 
``Ohio, the DOJ scandal, and `Thor'--the god of voter 
suppression.''
    Okay. The third is from--you have to appreciate our staffs 
on both sides of the aisle. They work hard.
    The third and final one is from the Daily Kos, quote, 
``198-Thor: GOP `Voter Fraud' Lawyer Thor Hearne''--I am going 
to stop right there.
    Without objection, these three will be included in the 
record.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Chairman Butterfield. Okay. Before we conclude, I am going 
to ask also unanimous consent to enter into the record the 
report prepared by this Subcommittee in the last Congress, 
under then Chair Marcia Fudge, detailing our findings of 
discrimination in voting practices. That is the document that I 
hold in my hand.
    Hearing no objection, it is so ordered.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
       
    Chairman Butterfield. If I am not mistaken--and staff can 
correct me if I am wrong--this is hearing number six of six.
    Staff. Five.
    Chairman Butterfield. This is hearing five of five.
    And I think we are going to be completing this work, and we 
are going to be documenting and writing up our findings. And I 
will be transferring this data, this information, to the 
Committee on the Judiciary, hopefully by June the 30th. That is 
my self-imposed deadline. That is my intention.
    And then we will await action by the Committee on the 
Judiciary, both in the House and in the Senate. And, hopefully, 
within the foreseeable future, we will be able to write a 
formula, write a bill, and get it passed and signed by the 
President.
    Thank you very much for your testimony.
    Without objection, the Subcommittee adjourns.
    [Whereupon, at 12:38 p.m., the Subcommittee was adjourned.]

      

                    QUESTIONS FOR THE RECORD

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    

      

                  SUBMISSIONS FOR THE RECORD

=======================================================================


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
    
  
 
    

 
 
 
    
  
</pre></body></html>
